1
No. _______________
IN THE SUPREME COURT OF THE UNITED STATES
CHRISTINE D’ONOFRIO, PETITIONER
v.
COSTCO WHOLESALE CORPORATION, RESPONDENT
ON PETITION FOR A WRIT OF CERTIORARI
FOR THE UNITED STATES ELEVENTH CIRCUIT COURT OF APPEALS
PETITION FOR A WRIT OF CERTIORARI
THOMAS J. BUTLER
Counsel of Record
407 Lincoln Road, Suite 300
Miami Beach, Florida 33139

2
QUESTIONS PRESENTED
A. Whether the majority opinion in affirming the grant of a Fed. R. Civ. P. 50(b)
motion failed to apply the correct standard of review, and under the correct standard the
evidence was legally sufficient to support the verdict in violation of the Seventh
Amendment and United States Supreme Court precedent?

3
PARTIES TO THE PROCEEDINGS
Petitioner is CHRISTINE D’ONOFRIO (or D’Onofrio”) Respondent is
COSTCO WHOLESALE CORPORATION (or “Costco”).

4
TABLE OF CONTENTS
Page
Opinions below…………………………………………………………….. 6
Jurisdiction…………………………………………………………………. 6
Constitutional and statutory provisions involved………………………….. 7
Statement……………………………………………………………………8
Reasons for granting the petition…………………………………………... 23
A. The majority opinion in affirming the grant of a Fed. R. Civ. P. 50(b) motion
failed to apply the correct standard of review, and under the correct standard
the evidence was legally sufficient to support the verdict in violation of the
Seventh Amendment…………………………………………………… 23
Conclusion……………………………………………………………......... 39
Appendix A………………………………………………………………… A
Appendix B………………………………………………………………… B
TABLE OF AUTHORITIES
Cases:
Abel v. Dubberly, 210 F.3d 1334 (11th Cir. 2000)………………………………… 32
Anderson v. Liberty Lobby, Inc., 477 U.S. 242 (1986)…………………………….. 33
Basham v. Pennsylavania R. Co., 372 U.S. 699 (1963)…………………………… 38
Batson v. Salvation Army, 87 F.3d 1320 (11th Cir. 2018)…………………………. 34
Canny v. Dr. Pepper, 439 F.3d 894 (8th Cir. 2006)……………………………….. 31
Continental Ore Co. v. Union Carbide & Carbon Corp., 370 U.S. 690 (1962)…... 33
Holbrook v. City of Alpharetta, 112 F.3d 1522 (11th Cir. 1997)…………………...26
Holly v. Clairson Indus., LLC, 492 F.3d 1247 (11th Cir. 2007)………………….... 24, 30
Home Design Servs., Inc. v. Turner Heritage Homes Inc., 825 F.3d 1314

5
(11th Cir. 2016)…………………………………………………………….. 32
Lavender v. Kurn, 327 U.S. 645 (1946)……………………………………………. 38
Lytle v. Household Mfg., Inc., 494 U.S. 545 (1990)……………………………….. 33
Reeves v. Sanderson Plumbing Prods., Inc., 530 U.S. 133 (2000)………………32-34, 38
Samson v. Fed. Exp. Corp., 746 F.3d 1196 (11th Cir. 2014)……………………….23
Stewart v. Herman’s Cheshire Bridge, Inc., 117 F.3d 1278 (11th Cir. 1997)……...31-32
Tate v. Potter, No. 04-61509-CIV, 2008 WL 11400757 (S.D. Fla. Mar. 25, 2008)..31
U.S. Airways, Inc. v. Barnett, 535 U.S. 391 (2002)………………………………... 26
Watts v. Great Atl. & Pac. Tea Co., 842 F.2d 307 (11th Cir. 1988)………………..38
Constitution and Statutes:
29 C.F.R. § Pt. 1630………………………………………………………………...26
28 U.S.C. § 1254(1)………………………………………………………………… 6
42 U.S.C. § 12112(b)(5)(A)………………………………………………………… 24
§ 760.01–§ 760.11, Fla. Stat……………………………………………………….. 8
Fed. R. Civ. P. 50……………………………………………7-9, 11, 20-21, 23, 31-35, 37
U.S. Const. amend. VII (Seventh Amendment)…………………...2, 23-24, 26, 31-32, 34, 38
Other
EEOC, ENFORCEMENT GUIDANCE: Reasonable Accommodation and Undue
Hardship Under the Americans with Disabilities Act, No. 32……………………... 25

6
IN THE SUPREME COURT OF THE UNITED STATES
CHRISTINE D’ONOFRIO, PETITIONER
v.
COSTCO WHOLESALE CORPORATION, RESPONDENT
ON PETITION FOR A WRIT OF CERTIORARI
FOR THE UNITED STATES ELEVENTH CIRCUIT COURT OF APPEALS
PETITION FOR A WRIT OF CERTIORARI
The undersigned Counsel Thomas J. Butler, on behalf of D’Onofrio, respectfully
petitions for a writ of certiorari to review the judgment of the United States Eleventh
Circuit Court of Appeals of Appeals in this case.
OPINIONS BELOW
The opinion of the United States Eleventh Circuit Court of Appeals (App., infra,
Appendix A) is reported at 964 F. 3d 1014 (11th Cir. 2020). The United States Eleventh
Circuit Court of Appeals denial of a motion for rehearing (App., infra, Appendix B) is
not reported. The order of the United States District Court (App., infra, Appendix C) is
not reported.
JURISDICTION
The disposition of the United States Eleventh Circuit Court of Appeals was
entered on August 19, 2020. The jurisdiction of this Court is invoked under 28 U.S.C. §
1254(1).

7
CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED
U.S. Const. amend. 7, states in pertinent part:
In Suits at common law, where the value in controversy shall exceed twenty
dollars, the right of trial by jury shall be preserved, and no fact tried by a jury,
shall be otherwise re-examined in any Court of the United States, than according
to the rules of the common law.
Fed. R. Civ. P. 50, states in pertinent part:
(a) Judgment as a Matter of Law.
(1) In General. If a party has been fully heard on an issue during a jury trial and
the court finds that a reasonable jury would not have a legally sufficient
evidentiary basis to find for the party on that issue, the court may:
(A) resolve the issue against the party; and
(B) grant a motion for judgment as a matter of law against the party on a
claim or defense that, under the controlling law, can be maintained or
defeated only with a favorable finding on that issue.
(2) Motion. A motion for judgment as a matter of law may be made at any time
before the case is submitted to the jury. The motion must specify the judgment
sought and the law and facts that entitle the movant to the judgment.
(b) Renewing the Motion After Trial; Alternative Motion for a New Trial. If
the court does not grant a motion for judgment as a matter of law made under
Rule 50(a), the court is considered to have submitted the action to the jury
subject to the court’s later deciding the legal questions raised by the motion.
No later than 28 days after the entry of judgment—or if the motion addresses
a jury issue not decided by a verdict, no later than 28 days after the jury was
discharged—the movant may file a renewed motion for judgment as a matter
of law and may include an alternative or joint request for a new trial under
Rule 59. In ruling on the renewed motion, the court may:
(1) allow judgment on the verdict, if the jury returned a verdict;
(2) order a new trial; or
(3) direct the entry of judgment as a matter of law.

8
STATEMENT OF THE CASE
D’Onofrio, is a totally deaf individual who was terminated by Costco after twenty
(20) plus years of employment.

D’Onofrio filed an administrative charge of

discrimination (Jnt. Exh. 30), and thereafter filed a lawsuit against Costco in Florida state
court, alleging discrimination under the Florida Civil Rights Act of 1992, § 760.01–§
760.11. (DE 1-1 at 4-9) (Complaint). Costco removed the case to federal court in the
Southern District of Florida.
Costco had moved for summary judgment challenging D’Onofrio’s ability to
prove that Costco had not provided a reasonable accommodation. (DE 24). The motion
was denied due to the existence of genuine issues of material facts. (DE 52-12-14). At
the nine-day jury trial, the district court denied Costco’s Rule 50(a) motions for directed
verdict made at the close of D’Onofrio’s case and at the close of the evidence. (DE 94)
(June 6, 2018 Motion); (DE 122-5) (court reserves ruling); (Id. at 212-16) (motion at the
end of the case); (DE 122-222) (oral ruling denying both motions).
On the only claim pertinent to this case, the “failure to accommodate” claim, the
jury was instructed that the parties had agreed to all but two elements, and that the issues
for their consideration on that claim were (1) whether D’Onofrio requested an
accommodation, and (2) whether Costco failed to provide reasonable accommodations.
(DE 124-91-95). The jury found in D’Onofrio’s favor on both questions, awarding her
$750,000 for emotional pain and mental anguish and $25,000 in punitive damages. The
jury found in Costco’s favor on the remaining claims. (DE 103) (Verdict); (DE 124-11821).

9
After judgment was entered (DE 111), Costco renewed its motion for judgment as
a matter of law under Rule 50(b), and alternatively sought a new trial or remittitur under
Rule 59. (DE 126; DE 127). The district court granted Costco’s renewed motion for
judgment as a matter of law, and conditionally granted a new trial in the event that the
judgment as a matter of law was reversed. (DE 140).

Noting that disability

discrimination claims under the Florida Civil Rights Act are analyzed under the same
framework as the Americans with Disabilities Act (ADA) (id. at 5), the order (like the
parties) relied exclusively on federal law. In stating the issue, the district court focused
on the Video Remote Interpreter device that Costco had provided:
[T]he question before the jury, with respect to the [failure
to accommodate] claim at issue, and now, before the
Court, is whether VRI, among other accommodations, is a
reasonable accommodation by which Defendant could
seek to fulfill its legal obligation to a disabled employee.
(DE 140-24) (Order). On that question, The district court found the evidence to be
legally insufficient to sustain the jury’s finding on reasonableness and determined,
contrary to the verdict, that Costco had provided reasonable accommodations:
[T]he Court here finds that no reasonable jury could find
that Defendant did not provide a reasonable
accommodation to Plaintiff. At least within the applicable
time period, beginning in December of 2012 and
continuing up to Plaintiff’s termination, Defendant
provided accommodations which were reasonable.
(DE 140-14) (Order).
The district court concluded that the availability of the VRI device, and a few
hours of training on “deaf culture” that was provided to certain managers, and the
occasional live interpreter for certain group meetings, satisfied Costco’s obligation to
provide a reasonable accommodation. Id. at 17. The district court did not address the

10
fact that Alan Holliday, a supervisor who began working at the store after the training
was provided, who interacted with D’Onofrio every day, and who later wrote D’Onofrio
up repeatedly for talking loudly and exhibiting what he believed were signs of
inappropriate behavior, was provided no information from his superior or anyone else
about the training and recommendations flowing from that training meeting. (See DE
122-19-21, 49-51, 87-88) (See infra, Statement of Facts). Instead, the district court came
close to finding that a functioning VRI is per se a reasonable accommodation:
[R]egardless of whether or not an on-site interpreter would
have been a better accommodation [than the VRI], and
there was no witness who was offered as an expert who so
testified; indeed, there is no testimony from any witness
which could meet the burden of establishing that this
accommodation was not reasonable. No reasonable jury
could find that a reasonable accommodation was not
offered.
(DE 140-19) (Order). That conclusion was based in part upon the fact that no evidence
suggested that the VRI did not function properly, and that D’Onofrio had not always
wanted to use it. Id. at 24-25. In addition, the court found that Costco was entitled to
remove the functioning three-manager communication team that had been put in place at
the suggestion of Costco’s consultant at the Center for Hearing and Communication,
because Costco “was not required to provide this particular accommodation.

Thus,

Defendant cannot be said to fail to comply with the law when it removes an
accommodation that is not legally mandated.” Id. at 22. Throughout the order, the
district court credited Costco’s version of events, put the blame on D’Onofrio for her
difficulties in communicating with the general manager and the front end manager, and
found that her dissatisfaction with the VRI device as an effective solution to the

11
communication issues she was experiencing “was obstructing the reasonable
accommodation which Defendant was providing.” Id. at 26.
Christine D’Onofrio loved her job. (DE 117-12, 19). She began working for
Costco in 1989, at age 25 (DE 79-9), at the Davie, Florida store. (DE 117-18). Over the
years, she was assigned to the bakery, the pharmacy, and stocking the sales floor,
working among over six hundred other employees and forty managers. (See e.g., DE 11722; DE 118-99; DE 120-155-57). In 2003, she transferred to the Pompano Beach, Florida
store (DE 117-18), and remained there until she was terminated by (DE 117-18), and
remained there until she was terminated by the General Manager, Alan Pack, in October
2013, at age 49. (DE 116-202; Def. Exh. 11) The Davie store has approximately 225
employees; the Pompano Beach store has about 250 employees and 20-25 managers. The
“over 600” number above reflects turnover over twenty-plus years. (DE 120-155-57).
D’Onofrio is profoundly deaf, since birth, and cannot hear any sounds. She can
read lips “a little bit” if the individual speaker speaks slowly and with eye contact, but
requires an on-site interpreter for multi-person meetings, where people tend to speak
quickly. (DE 116-190-91).

She communicates best using sign language, less well

through lip reading, and although she can speak, she cannot hear her own voice and (like
other deaf people) cannot control the volume of her voice. (DE 117-59; DE 121-91, 92,
99).
From the time she was transferred to the Pompano Beach location in 2003, until
2012, D’Onofrio made no complaints about any of the 15-20 managers. (DE 118-106,
109). Her employment records reveal only two incidents during that period. A 2007
Employment Counseling Notice (“ECN”) described an argument with another employee.

12
(DE 117-26-32); (Def. Exh. 6). A week later, and not knowing that an ECN had been
prepared, she wrote a letter of apology for her role in the incident. Id.; (see Def. Exh. 6, p.
3). And in 2011, she complained about a co-worker who repeatedly hit her with a floor
scrubber, knowing she was deaf but refusing to steer clear of her with the scrubber. (DE
117-32-33). D’Onofrio was frustrated by the fact that Costco concluded she had not been
hit by the scrubber, and therefore took no action against that employee. (DE 117-33; DE
120-168-71). Indeed, Costco’s Regional Vice-President, Steven Powers, admitted at trial
that Costco’s response to the “scrubber incident,” failing to take steps to ensure that it
would not happen again, was wrong: “Hindsight being 20/20, we could have done
something.” (DE 120-180).
In general, for decades she was a loyal employee who reported no communication
problems. (DE 118-106). Unmarried, with no children (DE 116-197), D’Onofrio told the
jury that “My life was Costco”:
I was happy. I was able to do something. I was able to socialize with friends. I
was able to go on vacations. . . .I mean, I would get to work at 5:00 in the
morning. That was tough, you know. So imagine. I had to go to bed at 9:00. I was
not a night owl. So I would go to sleep at 9:00 p.m. and get up.
That was everything. That was my life. Everything I did was thinking about
Costco. My life was Costco. That’s it. That was what I did. I went to sleep early,
woke up at the crack of dawn, and I went to Costco.
(DE 117-110-11).
Then, in the summer of 2012, Alan Pack arrived at the Pompano Beach store
as General Manager. (DE 116-34). The “top man” at the store, he was an on-the-job
trained manager, albeit with more than 30 years’ experience with Costco, who had never
before had a deaf employee or an employee who required accommodations under the
ADA. Pack’s training about the ADA had taken place twenty years earlier, with some

13
self-administered Costco on-line training modules after that. (DE 118-92-99).
D’Onofrio, one of only five non-management employees with over twenty years with the
company (id. at 101), found him to be “horrible.” (DE 117-84).
He mumbled, making lip-reading impossible, refused to communicate with her in
writing, ignored her when she tried to talk to him, ridiculed her for talking with her
hands, “smirked” over her attempts to communicate, and was sarcastic. (DE116-34-38).
Eventually, because she thought “it’s vital for me to have access to communication about
my workplace” (DE 117-38), and believing that she had “exhausted the chain of
command” at the store with no resolution, she invoked the company’s “open door policy”
that allowed employees to lodge complaints with their managers’ higher-ups. (See DE
119-200; DE 118-134; DE 120-162); (see also Jnt. Exh. 1, p. 11) (Costco Employee
Agreement, § 2.1). D’Onofrio wrote to Costco’s CEO, Craig Jelinek. (Jnt. Exh. 5) (Nov.
20, 2012 letter) (see DE 117-41).
She explained her difficulties with Alan Pack, and that his treatment of her was
causing her great mental, physical, and emotional stress. Id. Asked at trial to explain the
letter, she responded, “how am I supposed to solve a problem with someone who refuses
to communicate with me? And he was the only one who refused to talk to me was Alan
Pack.” (DE 117-39-40).
The communication problem she experienced with her new manager was very
different from her historical ability to communicate satisfactorily in the workplace.
Indeed, her recent Performance Appraisals documented that, despite her deafness, her
prior managers evaluated her favorably in the area of Interpersonal Skills &
Communication. (See DE 118-67-79).

14
2008
(Pl. Exh. 20)

“Meets
Expectations”

“Christine has always accepted the coaching
that is geared towards her, and works well
with her peers.”

2009
(Pl. Exh. 21)

“Meets
Expectations”
or “Exceeds
Expectations”

“Christine works and interacts well with
other employees, she expresses ideas about
her department well, and follows coaching.”

2010
(Pl. Exh. 22)

“Outstanding”
or “Good”

“Christine is a good communicator and she
makes sure to express an[y] issues or
concerns that she may have”
“expresses disagreement in a way that can
result in a positive outcome”

2011
(Pl. Exh. 23)

“Outstanding”
or “Good”

“Christine is a good communicator. . . .”
“Christine will always lend a helping hand
where ever needed.”

Pack did not review those Performance Appraisals before preparing her October
2012 Performance Appraisal (DE 119-11) and was less complimentary, writing that she
took offense to “constructive criticism” instead of viewing it as a “learning tool.” (Pl.
Exh. 24).
Steven Powers, Costco’s Regional Vice-President based in Atlanta (DE 120-15758), responded to D’Onofrio’s letter to the CEO, and came to South Florida to meet with
her, because he had a sense of urgency about the complaints, and wanted to be
“supportive” of Pack. (DE 120-174, 188). On December 12, 2012, with an onsite
interpreter present, Powers and Angela LiCastro, a Human Resources employee who
happened to be in South Florida (DE 119-198; DE 120-185) had an informal meeting
with D’Onofrio at a local hotel. Asked why he brought an interpreter, Powers said, “Well,

15
the whole issue was communication . . . . it seemed like the crux of the matter was that
she was having a hard time communicating, I wanted to remove that barrier.” (DE 18687). What Powers didn’t want was a “paper trail.” After reviewing a response that Pack
had drafted, Powers told him “You clearly have put a lot of effort into a response to
Christine however I am trying to figure out a way to convey your message verbally
without the paper trail.” (Pl. Exh. 25) (emphasis supplied); (see also DE 118-146-48; DE
120-177-78).
Powers’ two “takeaways” from the meeting were (1) that there was “definitely a
communication issue” between D’Onofrio and Pack, because he mumbled and she could
not read his lips (“that’s a big problem if she can’t understand the general manager”), and
(2) that she felt “very strongly” that Costco did not understand the deaf culture. (DE 120191).
D’Onofrio explained that the term “deaf culture” encompasses deaf persons’
various ways of communicating, their unique needs and skills, and related information.
(DE 117-42-43). She suggested to Powers that Costco provide training in deaf culture for
its managers and employees, but Powers initially rejected the idea. Id. at 42-43. Instead,
a month later, both he and LiCastro advised D’Onofrio that two VRI (Video Remote
Interpreter) devices were to be installed in the store. (Def. Exhs. 7 and 8).
At the end of January, two immobile VRI devices were installed, one in the
office, and one in a pharmacy conference room. (DE 117-52; DE 118-139). A VRI, with
a screen the size of a laptop computer screen (DE 120-219), operates by connecting to a
live person at a remote location, who listens to one person and uses sign language to
communicate those words to the deaf person. (DE 117-152; DE121-110). It is “very

16
much a one-on-one situation.” (DE 121-89). Melissa Mocilac, from Human Resources,
asked D’Onofrio to call her from the pharmacy conference room VRI on February 4.
(DE 118-14-16). She went there to make the call, but was interrupted by Pack, who
immediately scolded her for being in the room, for having her lunch with her, and for
being on the VRI, demanding to know who she was calling. (DE 117-53-54).
Then began a period of time where D’Onofrio believed Pack was “stalking” her at
the store, following her around and acting distrustful of her, a concern that she voiced
repeatedly (Jnt. Exhs. 7, 15), but that Costco found to be unfounded. (DE117-54-55, 70;
DE 120-109-10, 199-206); (Def. Exh. 14). That determination was made and reported to
Powers within twenty minutes of D’Onofrio’s complaint, based on Personnel Specialist
Angela LiCastro discussing the complaint with Pack before she discussed it with
D’Onofrio, contrary to company policy to keep such complaints confidential. (DE 119245-52); (DE 99-13; Jnt. Exh. 1, § 2.5). The pro-Pack determination was memorialized in
a March 5, 2013 letter from a different Personnel Specialist (Jnt. Exh. 32) (“we found that
Alan treated you appropriately and conclude that the facts do not support your complaint
of a violation of Company policy”).
Nonetheless, Powers changed his mind, and arranged for selected managers to
attend a training session at the Center for Hearing and Communication, in Fort
Lauderdale. Dr. Shana Williams, a psychologist who is the Center’s Director of Mental
Health, described the facility as a “deaf service center” providing services for people with
hearing loss, including an audiology department, mental health, and education, and also
providing training to major companies about the special needs of the deaf. (DE 121-7580). Before the training meeting, Dr. Williams visited the Pompano Beach Costco store to

17
learn about D’Onofrio’s work environment, noting that the way in which the VRIs had
been installed in two locations was “very effective.” Id. at 80-83. The district court noted
this testimony, but overstated it by writing that Dr. Williams “thought the VRI was
effective.” (DE 140-18). Her remark pertained only to the availability and location of the
devices.
Dr. Williams and a colleague conducted meetings at the Center on March 1,
2013. Present were D’Onofrio, Alan Pack, Steven Powers, four other managers, Ainsley
Brown, Carol Sivon, Jeff Weissler, and Jorge Vallejo, and a networking person involved
with operation of the VRIs. An on-site sign language interpreter was also present. (DE
121-80-86, 108; Jnt. Exh. 9). Afterwards, everyone agreed the meeting was informative.
(See e.g., DE 117-60-61; DE 118-163-68). Pack prepared a summary of the meeting,
which Dr. Williams found to be an accurate recap. (Jnt.Exh. 9); (DE 80-86, 108).
The majority of the meeting was Dr. Williams explaining “deaf culture,” and
that deaf people “have their own specific norms, values, language, and customs.”
(DE 121-82, 118).
[DR. WILLIAMS]: Deaf people tend to point, where hearing
people don’t. So in deaf culture, that’s very appropriate.
A deaf person might tap on your arm to get your attention or
flip the lights on and off which to most hearing people
would be quite disruptive, but it gets the attention of other
deaf people.
They will use another person to relay information
so they will pass information by tapping somebody closer
or getting their attention to relay back to the back of the
room.
(DE 121-119).
She also explained that a deaf person may attempt to make noise or pound a table
to get someone’s attention: “[i]f a deaf person wants to get your attention, they will use

18
the sound vibration to the end of the table to get somebody to look.” Id. Dr. Williams
explained that deaf people sometimes speak louder than other people, especially when
excited or upset, because they cannot hear and they have no ability to modulate their
voice and are unaware of the volume. Id. at 120. She further explained that in the deaf
culture, “it is very appropriate to be direct and quite blunt and also to elaborate. So they
will speak for a very long time,” a practice that a hearing person may perceive as rude.
Id. at 121. Dr. Williams provided a copy of a PowerPoint presentation, so that Costco
could share this information with employees who did not attend the training session. (DE
121-122-23). She was later surprised to learn that Costco had not done so. Id. at 124.
Several ideas and recommendations grew out of that March 1, 2013 meeting,
including understanding challenges deaf employees face; understanding that D’Onofrio’s
conduct was similar to other deaf persons; the selection of a three manager
communication team to have direct communication with her, in order to limit her need to
interact with Pack; the use of an on-site interpreter for group meetings and performance
evaluations; the use of the VRI for one-on-one conversations; and a commitment by all
parties to work toward achieving better communication. (Jnt. Exh. 9); (see also DE 11756-62; DE 121-89, 112-15). Thus, the VRI was discussed as one tool to assist in
communication, but it was not represented to be the solution to the communication
problems D’Onofrio was experiencing.
D’Onofrio had not requested the VRI, having communicated with other managers
for over twenty years without one. She wanted training in “deaf culture” for her new
managers, and an on-site interpreter. (DE 117-68, 76); (Jnt. Exh. 13, p. 2) (in July 2013,

19
LiCastro had a “concern” because “we had not had an interpreter sit in on reviews or
employee meetings”).
But even when D’Onofrio used the VRI, Pack caused her to give up. On their
first attempt, she agreed to use it, but Pack became “combative,” so she hung up. Id. at
81. They reached a second remote interpreter, but Pack “was trying to control the
interpreter and tell them what to do.” (DE 117-81). That interpreter then refused to work
with them, and D’Onofrio hung up the VRI again. Id.
Even Pack acknowledged that the VRI alone was not the solution to their
communication problems:
Q. And the reason [Costco] did several things to help her in
her accommodations was because the VRI machine alone was
not enough without training for the deaf culture, correct? You
couldn’t do one without the other; you needed both?
A. [PACK]: Yes.
***
Q. [T]he [three-manager communication] team was also
designed to accommodate her hearing impairment?
A. Yes.
(DE 118-182).
Powers, too, admitted that the VRI was just a tool:
Q. You were not expecting at that point in time when you set
up that meeting at the center for the deaf culture that the VRI
machine was the sole exclusive answer to the communication
problems that Christine was experiencing at Costco, correct?
Q. [POWERS]: No, It was just an assistance, a tool.
Q. Just an assistance?
A. Yes, sir.

20
(DE 120-196).
That was consistent with Dr. Shana Williams’ testimony:
Q. Did you believe that the installation of the VRI phone by
itself would solve the communication issues that were
existing between Christine and Mr. Pack?
Q. [DR. WILLIAMS]: I made a recommendation that they
both come in to work on some of their communication
challenges, so I don’t think that was the only intervention
that we suggested.
***
Q. But the installation of the VRI phone by itself would not
have solved all the communication problems, correct?
A. No.
(DE 121-128)
Thus, three witnesses acknowledged that the VRI alone was not enough to
fully accommodate D’Onofrio’s special needs.
The three-manager communication team, put in place after the training session,
functioned well. (DE 117-60-64; DE 118-182; DE 120-43-50). But after only ten weeks,
Costco discontinued that accommodation, for no articulated reason, other than stating that
it had been “temporary.” (Def. Exh. 14)(Personnel Specialist Angela LiCastro’s letter to
D’Onofrio)(“This solution cannot realistically continue.”).

Instead, D’Onofrio was

directed to communicate with Pack in the future. Id.; (see also DE 117-61-64).
LiCastro admitted she had no basis for her statement that the three-manager
communication team had been a temporary solution, although it might have come from
Powers. (DE 120-50-54). Powers, however, denied making the decision or knowing
why the letter was written. Id. at 231. Wherever the directive originated, LiCastro said

21
that the problem was that D’Onofrio was not communicating with Pack (not saying
“good morning” to him on a daily basis) and the three-manager communication team was
therefore discontinued, with no alternative accommodation offered. Id. at 48, 50, 55, 57.
Around that time, in April 2013, a new front end manager arrived at the Pompano
Beach store, Alan Holliday. (DE 122-20). He interacted with D’Onofrio every day (id. at
21, 51), but his superior, Pack, never told him that she had complained to Human
Resources and to the corporate office about the need to accommodate her disability and
her communication problems with Pack. Id. at 44. Holliday received no training on deaf
culture or on how to accommodate a deaf employee (id. at 48-49), and was not shown the
PowerPoint that the Center for Hearing and Communication had provided to Costco for
training purposes. Id. at 49. Indeed, no evidence suggests that Holliday even knew that
there had been a training meeting at the Center for Hearing and Communication to train
other managers on deaf culture and to address D’Onofrio’s communication problems. As
a result, Holliday was not informed of the three-manager communication team that was
an accommodation in place when he arrived. (DE 122-52).
In the ensuing months, Holliday repeatedly accused D’Onofrio of being loud,
angry, and insubordinate. After years with no ECNs, a flurry of them began a few
months after Holliday’s arrival, ultimately leading to D’Onofrio’s termination. (See Jnt.
Exhs. 18; 20; 21; 22); (DE 121-11-12, 34). The common theme in those ECNs is that
D’Onofrio was talking loudly, screaming, yelling, being aggressive, demanding eye
contact, and making dramatic and emphatic gestures, on the floor of the store and in the
ECN meetings themselves.

The ECNs portrayed her as unreasonably angry and

defensive with her managers and others. Indeed, at ECN meetings (conducted without an

22
on-site interpreter present), she was twice suspended for insubordination and unbecoming
conduct, first on September 6, 2013 (DE 117-82-83; Jnt. Exh. 20), and again on October
18, 2013. (DE 117-93; Jnt. Exh. 27).
Christine described the events leading to the atypical cluster of ECNs and the
suspensions differently. She felt strongly that she had done nothing wrong, and, after over
twenty years with Costco, was “completely perplexed” about the situation under the new
management (DE 117-83-84). For example, with regard to the ECN on September 23,
2013 (Jnt. Exh. 22), the jury heard this:
Q. Did you know that you were yelling and screaming at [Assistant General
Manager] Ainsley Brown?
A. [D’ONOFRIO]: No.
* * *
A. When I asked to not have a confrontation, why would I be yelling? If I’m
asking, saying I don’t want a confrontation, why would I yell at them? I mean,
I’m obviously saying I don’t want to argue, so I’m saying I don’t want a
confrontation. I wouldn’t be yelling. And how does he know what I said?
Obviously that means they understood what I said?
Q. If you yelled, was it your intention to yell at Ainsley Brown?
A. No, no, no. I would never do that on purpose.
(DE 117-86).
And on October 10, 2013, at 5:30 a.m., when D’Onofrio was on the floor of the
store discussing work to be done with another supervisor, Carol Sivon, Holliday appeared
and accused D’Onofrio of screaming. He was “very aggressive,” and she testified that
“he was screaming, I wasn’t screaming . . . he was so angry that he was kicking the
stuffed animals.” (DE 117-89-91). But on October 18, because of that incident, she was
suspended again. (Jnt. Exh. 27).

23
Ultimately, D’Onofrio never worked again, because when she returned from the
October 18 suspension on October 23, 2013, General Manager Alan Pack terminated her
employment. (Def. Exh. 11).

For that ECN meeting, Costco provided an on-site

interpreter, because, as Regional Vice President Steven Powers explained, Costco
“needed to make sure that she understood what was happening, that there wasn’t any
confusion, because apparently there was some confusion in the past . . . . We wanted
to make sure that this was very clear.” (DE 121-50).
On July 6, 2020, a panel of the United States Eleventh Circuit Court of Appeals in
a 2-1 decision entered an Opinion affirming the district court’s grant of judgment as a
matter of law to Costco pursuant to Federal Rule of Civil Procedure 50(b). On July 29,
2020, D’Onofrio filed a petition for panel rehearing, which was denied on August 19,
2020.
REASONS FOR GRANTING THE PETITION
B. The majority opinion in affirming the grant of a Fed. R. Civ. P. 50(b) motion
failed to apply the correct standard of review, and under the correct standard
the evidence was legally sufficient to support the verdict in violation of the
Seventh Amendment.
A. The guiding legal principles on the issue of “accommodation.”
To establish a prima facie case of disability-discrimination under the Americans
with Disabilities Act, a plaintiff must show that: (1) she is disabled, (2) she is a
“qualified” individual, and (3) that she was subjected to unlawful discrimination because
of her disability. See Samson, 746 F.3d at 1200 (see also DE 140-6) (Order). D’Onofrio
sued under the Florida Civil Rights Act, but the parties and the district court looked to
federal cases, because “disability-discrimination claims under the FCRA are analyzed
using the same framework as ADA claims.” Samson, 746 F.3d at 1200 n. 2 (quoting

24
Holly v. Clairson Indus., LLC, 492 F.3d at 1255. Here, it is undisputed that D’Onofrio
has a disability, that she is a qualified individual, that Costco knew of her disability, and
that one or more reasonable accommodations existed that would have allowed Plaintiff to
perform the essential functions of her job. (DE 101-10-11) (Jury Instructions).
The analysis here focuses on the third element, whether D’Onofrio was subjected
to unlawful discrimination because of her disability. Under the ADA, the definition of
the term “discriminate against a qualified individual on the basis of disability” includes
“not making reasonable accommodation to the known physical or mental limitations of
an otherwise qualified individual with a disability.” See 42 U.S.C. § 12112(b)(5)(A). In
other words, “[u]nder the plain language of the ADA and the FCRA, an employer’s
failure to reasonably accommodate an ‘otherwise qualified’ disabled employee itself
constitutes unlawful discrimination, unless the employer can show ‘undue hardship.’”
See Holly, 492 F.3d at 1249. Costco did not assert that any particular accommodation
would cause it an undue hardship. That defense is not an issue in this case.
Because of the stipulations, the jury was instructed that it only had to determine
two elements on the failure to accommodate claim: (1) did Plaintiff request an
accommodation?, and (2) did Costco fail to provide a reasonable accommodation? (DE
101-11). The jury answered “yes” to both questions. (DE 103-2-3)(Verdict). In the order
on appeal, the district court agreed that D’Onofrio had requested an accommodation, but
on the second point concluded that “no reasonable jury could find that Defendant did not
provide a reasonable accommodation to Plaintiff.” (DE 140-14). That, we submit, was
reversible error and a clear violation of the Seventh Amendment.

25
The ADA offers examples of reasonable accommodations, depending on the
circumstances:
(9) Reasonable accommodation
The term “reasonable accommodation” may include—
(A) making existing facilities used by employees
readily accessible to and usable by individuals with
disabilities; and
(B) job restructuring, part-time or modified work
schedules, reassignment to a vacant position, acquisition
or modification of equipment or devices, appropriate
adjustment or modifications of examinations, training
materials or policies, the provision of qualified readers or
interpreters, and other similar accommodations for
individuals with disabilities
See 42 U.S.C. § 12111(9).
Notably, an employer’s “duty to provide reasonable accommodation is an
ongoing one,” and some “individuals require only one reasonable accommodation,
Notably, an employer’s “duty to provide reasonable accommodation is an ongoing one,”
and some “individuals require only one reasonable accommodation, while others may
need more than one.”

See EEOC, ENFORCEMENT GUIDANCE: Reasonable

Accommodation and Undue Hardship Under the Americans with Disabilities Act, No. 32,
available at:
https://www.eeoc.gov/policy/docs/accommodation.html#workplace (last modified on
May 9, 2019). However, if “a reasonable accommodation turns out to be ineffective and
the employee with a disability remains unable to perform an essential function, the
employer must consider whether there would be an alternative reasonable
accommodation that would not pose an undue hardship.” See Id. While the employer

26
makes the ultimate decision on which effective reasonable accommodation it offers, “the
preference of the individual with a disability should be given primary consideration,” if
more than one reasonable accommodation is being considered. See 29 C.F.R. § Pt. 1630,
App. 29 C.F.R. § Pt. 1630, App. When an employer seeks to accommodate a disabled
employee, “what is reasonable for each individual employer is a highly fact-specific
inquiry that will vary depending on the circumstances and necessities of each
employment situation.” See Holbrook v. City of Alpharetta, 112 F.3d 1522, 1527 (11th
Cir. 1997).
The inquiry concerning whether an accommodation is “reasonable” and whether
an accommodation is “effective” are two separate concerns. See U.S. Airways, Inc. v.
Barnett, 535 U.S. 391, 401 (2002). In other words, an “ineffective ‘modification’ or
‘adjustment’ will not accommodate a disabled individual’s limitations.” See Id. (“It is the
word ‘accommodation,’ not the word ‘reasonable,’ that conveys the need for
effectiveness.”).
C. Applying the legal principles on this record is a violation of the Seventh
Amendment and United States Supreme Court precedent and requires
reversal.
Every disability has its own special needs. For example, accommodating an
employee in a wheelchair may be achieved by a few modifications to the work
environment such as the installation of a ramp, or lowering the height of a desk. These
are one-time modifications that do not require the ongoing cooperation and understanding
of coworkers and managers on a day-to-day basis. Accommodating a deaf employee is
an entirely different matter that requires the ongoing cooperation and understanding of
each person that interacts with the disabled employee.

27
During the jury trial, Dr. Shana Williams at the Center for Hearing and
Communication explained that deaf people communicate in ways that may seem
offensive to a hearing person, although no offense is intended: being blunt, loud, with
dramatic, expressive body language. See supra, pp. 13-14. A manager who doesn’t know
that such as Mr. Holliday, or who doesn’t remember that, or care (Mr. Pack), could easily
mistake normal attempts at communication (by a previously-described “good
communicator”) for insubordination. In such a situation, training (and learning) are a
more important accommodation than an immobile VRI turned on only when criticism and
discipline are about to be dished out. However, Costco failed to provide any training to
Mr. Holliday, which the jury could reasonably have believed was an inadequate response
to her known disability and the acknowledged communication issues. See U.S. Airways,
Inc., 535 U.S. at 401 (explaining that the ADA’s objectives “demand unprejudiced
thought and reasonable responsive reaction on the part of employers and fellow workers
alike.”).
The district court and a 2-1 panel opinion in the Eleventh Circuit did not view it
that way. The lower courts improperly weighed the evidence from Costco’s perspective,
finding “that no reasonable jury could find that Defendant did not provide a reasonable
accommodation to Plaintiff.” (DE 140-14, Appendix A, pp. 16-44).
The district court and a 2-1 Eleventh Circuit panel opinion thought that Costco’s
efforts were sufficient, despite their evident lack of effectiveness. The district court order
noted that Costco primarily provided “the VRI and training on the deaf culture,” and at
times “provided an on-site interpreter.” Id. at 17. Focusing on the VRI (DE 140-24), the
order concluded: “there is no testimony from any witness which could meet the burden of

28
establishing that this accommodation was not reasonable.” Id. at 19. The district court
then concluded that Costco had checked the box on its ADA obligation, and that the
record in this case is utterly devoid of any testimony that the VRI did not function
adequately.” (DE140-26). The 2-1 Eleventh Circuit Opinion agreed with the district
court.

(See Appendix A, pp. 16-44) That misses the point, where three witnesses

acknowledged that the VRI was never intended to be sufficient on its own to solve the
communication problems at issue. See supra, pp. 15-16.
In addition, the order granting judgment as a matter of law as well as the 2-1
Eleventh Circuit opinion (See Appendix A, pp. 16-44) featured evidence of D’Onofrio’s
frustration with the limitations of the VRI and her frustration with her manager’s
unwillingness to understand her disability, and interpreted them, much like Costco, as her
obstructing the process. (DE 140-23-25)(“It is also apparent that breakdowns in the use
of both of the primary accommodations were due, at least in part, to Plaintiff’s
unwillingness to engage.”). When the record is viewed in her favor, one sees that
D’Onofrio had a track record with Costco of more than twenty years, with her ability to
communicate well documented in her recent performance reviews. See supra, at 9.
A reasonable jury could conclude that—VRI or not—Pack’s and Holliday’s lack
of understanding of the challenges that are unique to deaf persons, and their repeated zeal
to find fault with her without hearing her side of the story, was a failure to provide an
ongoing reasonable accommodation.

D’Onofrio’s experience of Pack’s hostile

demeanor, and his making fun of her attempts to communicate, are the exact experiences
that the ADA is in place to eliminate, or at least to reduce. Those experiences were not
relieved by the VRI. For example, because the jury was told that it could believe or

29
disbelieve any witness (DE 124-86), the jury was entitled to believe the testimony of
Alan Pack’s former employee, Todd Amundson, who while in the Pompano Beach store
recognized Pack’s voice and overheard him tell someone, “get that F’ing deaf mute
away” from him. (DE 119-185-86). The jury was allowed to reasonably infer that
Pack’s animus permeated his relationship with D’Onofrio, making effective
communication impossible. And in view of Dr. Williams’ recommendation that an onsite interpreter be used for meetings of three people or more (DE 121-89, 109), a
reasonable jury could find that Costco’s failure to provide an on-site interpreter for any
ECN meeting before the termination meeting was a failure to provide a reasonable
accommodation.
The ADA “seeks to diminish or to eliminate the stereotypical thought processes,
the thoughtless actions, and the hostile reactions that far too often bar those with
disabilities from participating fully in the Nation’s life, including the workplace.” See
U.S. Airways, Inc., 535 U.S. at 401. The ADA’s objectives “demand unprejudiced
thought and reasonable responsive reaction on the part of employers and fellow workers
alike,” and sometime they will “require affirmative conduct to promote entry of disabled
people into the work force.” See Id. It was this understanding of the deaf culture that
D’Onofrio sought, and that Costco failed to provide.
Although Costco did provide training about “deaf culture” to some of its
managers, it removed the three-person communication team, an accommodation that had
been recommended by the Center for Hearing and Communication, and which was
working well. Instead, Costco insisted that D’Onofrio communicate with Pack, and
offered no training whatsoever to Holliday, the manager who worked with her daily.

30
Holliday was not shown the PowerPoint and was not even informed that a meeting
designed to improve communication with D’Onofrio had taken place. A jury could
reasonably conclude that the series of ECN’s initiated by Holliday could have been
avoided, had Pack or anyone at Costco made the effort to give Holliday some insight into
deaf culture, through the information that had been provided by the Center for Hearing
and Communication.
Holliday’s fundamental lack of understanding of his obligations under the ADA
was attributable to Costco, which had an ongoing obligation to let him know that
D’Onofrio needed to be treated somewhat differently than other employees. See Holly v.
Clairson Indus., LLC., 492 F.3d at 1262–63 (“the very purpose of reasonable
accommodation laws is to require employers to treat disabled individuals differently in
some circumstances—namely, when different treatment would allow a disabled
individual to perform the essential functions of his position by accommodating his
disability”). Collectively, if the jury’s credibility findings were in her favor, the above
record facts are legally sufficient to support a jury verdict, notwithstanding Costco’s
evidence and arguments that D’Onofrio was the cause of her problems at the workplace.
The cases cited by the lower courts concerning reasonable accommodation
claims, unlike this case, turn on other issues, such as whether the employee was disabled,
but also discuss the employees’ requests being unreasonable as a matter of law, so that
the employee does not get to pick-and-choose the employee’s preferred accommodation.
That is not the situation here, where D’Onofrio’s request for training in deaf culture and
an on-site interpreter was not unreasonable.

31
As an additional basis for granting and affirming the motion for judgment as a
matter of law, the district court and the Eleventh Circuit determined that D’Onofrio
caused the interactive process to identify a reasonable accommodation to break down.
(DE 140-25-26; Appendix A, pp. 16-44)(the evidence supports the conclusion that
Plaintiff was obstructing the reasonable accommodation which Costco was providing.).
The lower courts mistakenly relied on Stewart v. Herman’s Cheshire Bridge, Inc., 117
F.3d 1278 (11th Cir. 1997) in violation of the Seventh Amendment, and concluded that
D’Onofrio had caused the interactive process to break down and thus Costco was relieved
of liability. (DE 140-22). But Stewart is inapposite, because the employee’s request was
unreasonable as a matter of law. (“The court in Stewart was at pains to make clear that
the concept of a reasonable accommodation does not mean that a disabled individual is
entitled to choose how an employer accommodates her disability.”).

However, in

Stewart, the court affirmed a summary judgment where the district court had determined
that the employee was not disabled. See Id. at 1286-87. There, the employer had offered
five different reasonable accommodations but the employee refused them all without
explanation, and instead demanded 30-minutes paid breaks for herself and all her ablebodied coworkers. See Id. (“In this case, Stewart clearly crossed the line from seeking an
accommodation on her own behalf to becoming an advocate on behalf of a policy goal—
thirty minutes of paid break time for all Happy Herman’s employees.”).
But, “where the evidence can be interpreted in various ways, whether or not an
employer or employee engaged in an interactive process is for the jury.” See Tate v.
Potter, No. 04-61509-CIV, 2008 WL 11400757, at *5 (S.D. Fla. Mar. 25, 2008) (citing
Canny v. Dr. Pepper, 439 F.3d 894, 902-03 (8th Cir. 2006)). Sufficient record evidence

32
exists to support a reasonable jury’s determination that D’Onofrio’s conduct was merely
an expression of her frustration over her managers’ lack of understanding of the deaf
culture, as opposed to an obstruction akin to the facts in Stewart. D’Onofrio’s record of
working for Costco for more than twenty (20) years supports a reasonable jury’s
determination that she was willing and able to work with Costco’s management to
accommodate her disability, when Costco’s management was willing to work with her.
An employer is not relieved from its duties under the ADA simply because an
employee is frustrated with an ineffective accommodation. If that were so, then an
employer could simply insist on an ineffective accommodation that appeared reasonable,
and thereby force an employee, frustrated by the hardship of her disability and by her
uncooperative managers, to become “insubordinate” enough to get fired. That is not the
law. By determining that D’Onofrio’s frustration was an obstruction, the lower courts
created an escape hatch for Costco and violated the Seventh Amendment on a question
that was uniquely within the province of the jury.
The majority opinion sets out a standard of review that is correct, but incomplete:
This Court reviews de novo the district court’s grant of Costco’s motion for
judgment as a matter of law pursuant to Federal Rule of Civil Procedure 50. Abel
v. Dubberly, 210 F.3d 1334, 1337 (11th Cir. 2000) (per curiam). A court should
enter a JMOL only when there is “no legally sufficient evidentiary basis for a
reasonable jury to find for [the nonmoving] party.” Home Design Servs., Inc. v.
Turner Heritage Homes Inc., 825 F.3d 1314, 1320 (11th Cir. 2016) (alteration in
original) (quoting Reeves v. Sanderson Plumbing Prods., Inc., 530 U.S. 133, 149,
120 S. Ct. 2097, 147 L. Ed. 2d 105 (2000)).
See Appendix A, at p. 15. The majority opinion statement of the standard of review
omitted a critical component: the verdict-friendly perspective from which a court must
view the evidence when reaching its conclusion about its legal sufficiency. (See
Appellant’s Initial Br., pp. 20-21). That requirement places boundaries around “de novo”

33
review, respects the institutional role of the jury that is of constitutional importance, and
precludes a reviewing court from taking on the role of a second jury.
This Court’s decision in Reeves, 530 U.S. at 133, is highly instructive, because it
solidified the standard that governs review of an order under Rule 50, Federal Rules of
Civil Procedure. Reeves was an age discrimination case. Like here, the Reeves case went
to the jury, and the jury returned a verdict in favor of the plaintiff, awarding damages.
See Id. at 138. In Reeves, the district court denied the employer’s motion for judgment as
a matter of law, but the Fifth Circuit reversed, finding the plaintiff employee’s evidence
legally insufficient. See Id. at 139. On further review, this Court reversed, holding that
“the Court of Appeals erred in overturning [the] verdict.” See Id. at 154.
In Reeves, this Court clarified that a court must view all the evidence, and
described the prism through which a court must view the trial evidence. It is apparent
that a reviewing court, while applying de novo review, has certain constraints. Reeves
emphasized that a court should not intrude into the jury’s role in resolving disputes and
drawing reasonable inferences from the evidence:
[I]n entertaining a motion for judgment as a matter of law, the court should
review all of the evidence in the record.
In doing so, however, the court must draw all reasonable inferences in favor of
the nonmoving party, and it may not make credibility determinations or weigh
the evidence. Lytle v. Household Mfg., Inc., 494 U.S. 545, 554–555, 110 S. Ct.
1331, 108 L.Ed.2d 504 (1990); Liberty Lobby, Inc., supra, at 254, 106 S. Ct.
2505; Continental Ore Co. v. Union Carbide & Carbon Corp., 370 U.S. 690, 696,
n. 6, 82 S. Ct. 1404, 8 L.Ed.2d 777 (1962). “Credibility determinations, the
weighing of the evidence, and the drawing of legitimate inferences from the
facts are jury functions, not those of a judge.” Liberty Lobby, supra, at 255, 106
S. Ct. 2505. Thus, although the court should review the record as a whole, it must
disregard all evidence favorable to the moving party that the jury is not required
to believe. See Wright & Miller 299. That is, the court should give credence to the
evidence favoring the nonmovant as well as that “evidence supporting the moving

34
party that is uncontradicted and unimpeached, at least to the extent that that
evidence comes from disinterested witnesses.” Id., at 300.
See Reeves., 530 U.S. at pp. 150–51.
Because the panel majority opinion failed to acknowledge that critical portion of
the standard of review, the majority’s discussion of the evidence improperly mirrored
Costco’s and the district court’s perspective, and did not draw all reasonable inferences in
D’Onofrio’s favor, disregarding Costco’s evidence that the jury was not required to
believe, as required by Reeves and its progeny. See id. The majority conclusion that
“none of the proof that D’Onofrio cites is sufficient to support a jury finding of Costco’s
failure to accommodate” (See Appendix A, at p. 20) was the product of an erroneous
standard of review and is a violation of the Seventh Amendment. See Batson v. Salvation
Army, 87 F.3d 1320 (11th Cir. 2018)(See Appendix at p. 39), is inapposite, because there
the plaintiff “concede[d] that she was never denied a specific accommodation she
requested,” and summary judgment was granted. D’Onofrio made no similar concession.
D'Onofrio consistently sought to communicate with her managers, and although her
managers found her insubordinate, a reasonable jury could have found that the managers
misunderstood both her behavior and their obligations under the law.
A reasonable jury could have believed D’Onofrio, when she said “If the VRI was
set up to enable me to have effective communication, it wasn’t happening.”

(See

Appellant’s Initial Br. at 4) (citing DE 118-12-13). The VRI was installed in January and
used for the first time in August. (DE 117-52, 74). A reasonable jury could have found it
unreasonable for Costco to have let the VRI devices collect dust for six (6) months after
they were installed (See Appellant’s Initial Br., at p. 48), while Costco rebuffed
D’Onofrio’s reports that her supervisor was “stalking” her and making her uncomfortable

35
(Appellant’s Initial Br., at pp. 11-12)(citing Jnt. Exhs. 7, 15; Def. Exh. 14), and for
Costco to bring the VRI out only when calling D’Onofrio on the carpet for an ECN
“counseling” session. Her need for and request for an accommodation had nothing to do
with ECN counseling sessions; she wanted an accommodation in the workplace, to
improve communications with her manager, who was intolerant of her disability.
A reasonable jury could have believed D’Onofrio when she described Alan
Pack’s “combative” approach to using the VRI on their first attempt. (DE 117-81). A
reasonable jury could have found it unreasonable for Costco to have failed to apprise a
new manager, Alan Holliday, of the recent training session at the Center for Hearing and
Communication, and a reasonable jury could easily have rejected the notion that he was
equipped to supervise a deaf employee because he spent time with a deaf aunt when he
was growing up. Indeed, Holliday thought that exaggerated gestures means that a deaf
person is angry (DE 122-49-50), a misconception that the training session by Dr. Shana
Williams put to rest for those in attendance. (Appellant’s Initial Br., at pp. 13-14).
A reasonable jury could have found that Holliday’s lack of training continued or
exacerbated the problems with management that D’Onofrio had originally brought to
Costco’s attention. Holliday admitted having no training in how to supervise a deaf
employee, and believed—contrary to an employer’s responsibilities under the Florida
Civil Rights Act and the Americans With Disabilities Act—that he had no need “to treat
them any differently than any other employee as far as giving directions.” (DE 122-48).
But an accommodation under those anti-discrimination laws is a legal obligation to treat
disabled people differently in order to ensure that they can do their job, as long as doing
so is not an undue burden on the employer.

Costco never argued that any

36
accommodation in D’Onofrio’s case would have been an undue burden.

Thus, a

reasonable jury, having been told that before Pack and Holliday came on the scene
D’Onofrio was described as “outstanding” and a “good communicator” (Appellant’s Br.
9)(summarizing her performance reviews), could have concluded that the communication
problems originated with the supervisors, not the 24-year employee, and that Costco did
not take reasonable steps to alleviate their communication problems. That is especially
so where the behaviors described as “insubordinate” in the ECNs generated by Holliday
and Pack were described by Dr. Shana Williams as typical of deaf culture. (Appellant’s
Br. 13-14).
On that record, and even noting that in addition to D’Onofrio’s testimony, three
Costco witnesses testified that the VRI alone was not enough to accommodate the
communication problems (Appendix A at 26), the Eleventh Circuit majority opinion
summarily concluded that “These statements are insufficient to support a jury finding that
Costco failed to provide a reasonable accommodation.”

Se Id. at 27.

D’Onofrio

respectfully asks, why not? Those three, plus D’Onofrio, make four witnesses who
acknowledged the limitations of the VRIs and that testimony cannot be viewed in
isolation, but rather in the larger context of an employee who for over two (2) decades
worked happily and effectively despite her disability, and reached out for her employer’s
help only when her new manager was both impossible to understand and disrespectful to
her. (Appellant’s Br. 8)(citing DE 116-34-38). It is evident that the VRIs alone were
ineffective in this case, and that the training, while a good attempt, was of no use to
Holliday, who never learned of it. Ironically, the most effective accommodation—the

37
three-person management team recommended by Dr. Williams—was inexplicably
discontinued, for reasons that no one could articulate. See Def. Exh. 14.
Personnel Specialist, Angela LiCastro, admitted that she had no basis for deeming
the three-manager team “temporary” (DE 120-50-54), suggesting that Regional VicePresident, Steven Powers, was behind it. But nothing supported that assumption, and
Powers could not recall. See Id. at 231-32. The majority’s statement that LiCastro had a
good reason for discontinuing the team (slip op. at 10) is unsupported by the record, and
the statement that the effect of that was “null” because the three-manager team continued
(id.)(citing Doc. 117, p. 87) is not supported by the record citation and is plainly contrary
to LiCastro’s letter. (Def. Exh. 14).
The nine-day trial, where the ultimate issue on the failure to accommodate claim
was whether the defendant acted “reasonably,” was replete with disputed, impeached, and
inconsistent testimony, requiring a jury to sort it out. The jury instructions on the failure
to accommodate claim are illustrative of the complexity of the factual question. See DE
101-10-15; DE 124-93-96. The instructions were thorough, advising what Costco did,
and saying “You must determine whether the measures Defendant implemented
constituted reasonable accommodations.” (DE 101-12). Each of Costco’s defensive
positions was included in the instructions. See Id. at 12-15. The jury was to keep the
claims, defenses, and applicable principles in mind when considering the extensive
testimony, and render a decision on the reasonableness of Costco’s response to
D’Onofrio’s request for an accommodation.
On the record presented, a reasonable jury could have found in D’Onofrio’s favor,
and the majority’s failure to apply the correct standard of review and the violation of the

38
Seventh Amendment led to a decision that cannot be squared with decades of
precedent—both before and after Reeves—holding that issues of credibility are for the
jury, and that reasonable inferences from trial evidence must be viewed in favor of the
party that prevailed before the jury. See Reeves, 530 U.S. at 133, Lavender v. Kurn, 327
U.S. 645, 653 (1946), in which the Court stated, “Only when there is a complete absence
of probative facts to support the conclusion reached does reversible error appear;” See
Basham v. Pennsylavania R. Co., 372 U.S. 699 (1963)(holding that should either party to
a cause its Seventh Amendment right, the jury becomes the principal factfinder, charged
with weighing the evidence, judging the credibility of witnesses, and reaching a verdict).
In this case, Judge Wilson, dissenting, noted that the majority “sets forth trial
testimony supporting Costco’s defenses and affirms the district court,” whereas he found
that “the jury was well within its prerogative to accept D’Onofrio’s evidence over
Costco’s and make credibility determinations,” and “a reasonable jury could have
concluded that Costco failed to provide a reasonable accommodation for D’Onofrio’s
disability.” (Appendix A, Wilson, J., dissenting, at pp. 40-41). And, as shown above, “It
is the function of the jury as the traditional finder of the facts, and not the Court, to weigh
conflicting evidence and inferences, and determine credibility of witnesses.” (Appendix
A, Wilson, J., dissenting, at p. 41)(quoting Watts v. Great Atl. & Pac. Tea Co., 842 F.2d
307, 310 (11th Cir. 1988).

39
CONCLUSION
The petition for writ of certiorari should be granted in this case to reverse and
remand with directions to reinstate the judgment on the verdict, in favor of D’Onofrio.
Dated: December 18, 2020.
Respectfully submitted,
ss/Thomas Butler_______________
Thomas J. Butler, Esq.
Florida Bar Number: 569178
Thomas Butler, P.A.
407 Lincoln Road, Suite 300
Miami Beach, Florida 33139
(877) 847-1896
Counsel for Petitioner

APPENDIX A

Case: 19-10663

Date Filed: 07/06/2020

Page: 1 of 44

[PUBLISH]
IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
________________________
No. 19-10663
________________________
D.C. Docket No. 0:15-cv-62065-WJZ
CHRISTINE D’ONOFRIO,
Plaintiff-Appellant,
versus
COSTCO WHOLESALE CORPORATION,
Defendant-Appellee.
_________________________
Appeal from the United States District Court
for the Southern District of Florida
________________________
(July 6, 2020)
Before WILSON, MARCUS, and BUSH,* Circuit Judges.
BUSH, Circuit Judge:

*

Honorable John K. Bush, United States Circuit Judge for the Sixth Circuit, sitting by
designation.

Case: 19-10663

Date Filed: 07/06/2020

Page: 2 of 44

This case concerns the obligations of an employer to accommodate a deaf
employee under the Florida Civil Rights Act of 1992 (FCRA), § 760.01 - § 760.11.
The dispute arose after Costco Wholesale Corporation terminated the employment
of Christine D’Onofrio, who has been deaf since birth. She sued Costco in Florida
state court for violations of the FCRA, and Costco removed the case to federal court.
The trial ended with a jury verdict in Costco’s favor on one count of wrongful
termination, but against the company on D’Onofrio’s failure-to-accommodate claim,
which is the subject of this appeal. As to this latter claim, the district court granted
Costco’s motion for judgment as a matter of law and, in the event that this judgment
were to be reversed on appeal, conditionally granted Costco’s motion for a new trial
based on the verdict being against the great weight of the evidence.
For the reasons explained below, we agree with the district court that there
was insufficient evidence to support the failure-to-accommodate claim. Therefore,
we AFFIRM the district court’s grant of judgment as a matter of law to Costco
pursuant to Federal Rule of Civil Procedure 50(b). In light of this holding, we need
not address D’Onofrio’s second appeal related to the court’s conditional grant of
Costco’s new-trial motion.
I.
A.

D’Onofrio’s Employment at Costco: 1989 to 2011

2

Case: 19-10663

Date Filed: 07/06/2020

Page: 3 of 44

In 1989 D’Onofrio started her employment at Costco’s Davie, Florida
warehouse. (Doc. 79, p. 9; Doc. 116, p. 190). There, she worked for approximately
14 years, during which about 15 to 20 people at different times served as her
manager. (Doc. 117, pp. 10-11, 18). None of these supervisors had any difficulty
communicating with her, and she never filed any complaint with Human Resources
about any of them. (Id., pp. 11-12).
In 2003, D’Onofrio transferred to another Florida-based Costco warehouse,
in Pompano Beach. She acknowledged that, for many years in this job, she had no
“issues with managers involving communication,” and “was able to communicate
with managers and coworkers effectively” and “successfully.” (Doc. 117, pp. 22,
24-25). D’Onofrio’s performance evaluations prior to 2012 attest to these facts.
(Doc. 118, pp. 67-79; Doc. 112-4-7). She testified that as of “June 2011,” she “was
very happy” with her employment at Costco. (Doc. 117 p. 25). In addition, during
this period, there were relatively few behavioral incidents involving D’Onofrio.
In fact, there were only two such incidents reported. The first, in 2007,
involved an argument between D’Onofrio and another employee. (Doc. 117, pp. 2632). For this encounter, D’Onofrio received an “Employment Counseling Notice”—
Costco’s version of an employee warning. (Id.). The second incident, in 2011,
involved D’Onofrio’s allegation that another Costco employee had hit her with a
scrubber. When D’Onofrio complained to Costco, she was told to steer clear of the
3

Case: 19-10663

Date Filed: 07/06/2020

Page: 4 of 44

employee in question. Upon investigation of the matter, however, Costco ultimately
concluded that D’Onofrio had not been struck; therefore, the company took no action
against the other employee. (Doc. 117, p. 33; Doc. 120, pp. 168-71).
B.

D’Onofrio’s Employment Concerns Related to Her Deafness: 2012
During the summer of 2012, the work situation changed for D’Onofrio. She

began to experience “difficulties with Alan Pack,” (Appellant Br. at 8), the new
general manager. (Doc. 116, p. 34).

According to D’Onofrio, Pack “mumbled,

ma[de] lip-reading impossible, refused to communicate with her in writing, ignored
her when she tried to talk to him, ridiculed her for talking with her hands, ‘smirked’
over her attempts to communicate, and was sarcastic.” (Id. (citing Doc. 117, pp. 3438)). This conduct led D’Onofrio to “invoke[] the company’s ‘open door policy’
that allowed employees to lodge complaints with their managers’ higher-ups.” (Id.
(quoting Doc. 119, p. 200)); (see Doc. 119, p. 200; Doc. 118, p. 134; Doc. 120, p.
162); (see also Jnt. Exh. 1, p. 11) (Costco Employee Agreement, § 2.1.)). D’Onofrio
“thought ‘it [was] vital [] to have access to communication about my workplace,’
and believ[ed] that” accessing the open-door policy was necessary because “she had
‘exhausted the chain of command’ at the store with no resolution.” (Id.).
Accordingly, on November 20, 2012, D’Onofrio wrote a letter to Costco’s
Chief Executive Officer (CEO), Craig Jelinek, informing him of her communication
issues with Pack. (Doc. 117, p. 38; Doc. 99-43). Pack’s treatment of her was
4

Case: 19-10663

Date Filed: 07/06/2020

Page: 5 of 44

“causing her great mental, physical, and emotional stress.” (Appellant Br. at 8);
((See Jnt. Exh. 5) (Nov. 20, 2012 letter) (see also Doc. 117, p. 41).1 D’Onofrio
explained to Jelinek that “[a]s a born deaf person, I have always been able to
communicate with my managers. I am a lip reader and can speak well.” (Id.). She
appeared to be suggesting that the types of problems she was experiencing with Pack
were new.2
The day after Jelinek received D’Onofrio’s letter, he and Steve Powers,
Costco’s Vice President and Regional Operations Manager, reached out to schedule
a meeting so D’Onofrio could voice her concerns related to Pack. (Doc. 117, p.
147). Shortly thereafter, in December 2012, Powers and Angela LiCastro, a member
of Costco’s Human Resources Team, traveled to Fort Lauderdale, Florida to meet
personally with D’Onofrio and investigate her complaint. (Id. pp. 147-48). During
the meeting, D’Onofrio described her communications issues with Pack. To help
resolve these concerns, she made two requests of Powers and LiCastro: (1) that Pack
be transferred to a different Costco warehouse, and (2) that all Costco managers be
trained on deaf culture. (Id. pp. 40, 42-43, 149). D’Onofrio did not ask Powers or

When asked at trial to explain the letter, D’Onofrio responded: “how am I supposed to
solve a problem with someone who refuses to communicate with me? And he was the only one
who refused to talk to me was Alan Pack.” (Doc. 117, pp. 39-40).
1

D’Onofrio testified that she had “always been able to communicate with all of [her]
managers” before Pack. (Doc. 117, p. 38).
2

5

Case: 19-10663

Date Filed: 07/06/2020

Page: 6 of 44

LiCastro for any other specific accommodation that might help her improve her
communications with Pack. (Doc. 117, pp. 40, 149-150).
C.

Costco’s Response to D’Onofrio’s Concerns
1.

Installation of Video Remote Interpreting Equipment

Immediately after the meeting, Costco implemented several new measures,
including: (1) installing Video Remote Interpreting (VRI) equipment in two
locations at the Pompano Beach warehouse; and (2) subscribing to a VRI service.
(Id. pp. 151-53). A VRI service uses remote online sign language interpreters, who
can be contacted by way of video phone to facilitate communication between a deaf
individual and a hearing individual, both of whom are on the other end of the call
from the interpreter. (Id.). Costco felt that VRI would assist D’Onofrio in her
communication with Pack and other managers, given the equipment could interpose
a qualified interpreter between the two parties. To make the VRI more accessible,
Costco installed the equipment in two locations within the Pompano Beach
warehouse: the managers’ office, where informal coaching meetings, counseling
notices, and performance reviews typically occurred, (Doc. 118, pp. 8-9), and the
pharmacy consultation room, which was located close to D’Onofrio’s work space.
(Id. pp. 9-10). Lastly, Costco ensured that D’Onofrio received VRI training. (Doc.
117, p. 53).

6

Case: 19-10663

Date Filed: 07/06/2020

Page: 7 of 44

Witnesses introduced by Costco at trial, including Dr. Shana Williams,
Director of the Center for Hearing and Communication,3 spoke of the effectiveness
of VRI as a medium to facilitate communication between D’Onofrio and her
managers during group sessions. Williams testified that in most situations, VRI is
just as effective as an on-site interpreter for communicating with a deaf individual.
(Doc. 117., pp. 82-83, 91, 109-11). Williams also testified that while on-site
interpreters would be the most preferable medium of interpretation in large-group
meetings, such interpreters are by no means mandatory; VRI can be an effective
alternative in such settings, even if it functions less efficiently than an on-site
interpreters. (Id., pp. 109-11).
D’Onofrio initially considered the installation of the VRI equipment to be
positive and “good.” (Doc. 117, pp. 53, 60). However, as D’Onofrio herself reports,
immediately after Costco began using VRI, she began thinking, “I don’t have a
communication problem, what do we need this for[?]” (Id. p. 68 (emphasis added)).
D’Onofrio testified that she had never asked for the VRI equipment, nor did she need
the equipment because she “could communicate.” (Id., p. 75; Doc. 118, pp. 13, 46).4
2.

Deaf-Culture Training: March 2013

3

Williams also conducted the March 1, 2013 deaf-culture training that was requested by
D’Onofrio.
4

On the other hand, however, non-expert witnesses produced by Costco, including
Williams, testified that the VRI served as an effective tool to facilitate communication between
D’Onofrio and her managers during group sessions.
7

Case: 19-10663

Date Filed: 07/06/2020

Page: 8 of 44

Honoring D’Onofrio’s request for deaf-culture training, Costco arranged for
instruction to be provided by the Center for Hearing and Communication in Fort
Lauderdale, Florida on March 1, 2013. The central objective of the training was to
facilitate an interactive and open discussion on deaf culture and good
communication practices with deaf individuals. (Doc. 117, pp. 152-53). The
managers in D’Onofrio’s immediate chain of command attended the session. (Id.,
p. 155; Doc. 121, p. 83).
As part of the training, Williams made a number of suggestions to assist
D’Onofrio in her communication during Costco’s large-group meetings (i.e.,
“inventory meetings” and “warehouse meetings”) going forward. First, as to largegroup meetings, Williams suggested that Costco should consider providing
D’Onofrio with an on-site interpreter, given that the VRI technology is considered
less effective in this setting. (Doc. 121, pp. 109, 147). Although Williams made
clear there was no definitive number of people as to constitute a “group,” in her
opinion, any gathering of three or more people could be considered a benchmark.
Id. Second, Williams suggested that Costco designate a small group of no more than
three managers, with whom D’Onofrio was already comfortable, to act as the
primary conduits for her day-to-day work interactions. These interactions would
include providing directions to D’Onofrio, as well as serving as go-to contacts for
questions or concerns she might have. (Doc. 121, p. 90). However, D’Onofrio
8

Case: 19-10663

Date Filed: 07/06/2020

Page: 9 of 44

testified that when Williams proposed the three-manager team, she immediately felt
the measure was unnecessary. (Doc. 117, p. 60) (“So first [Williams] asked me who
I wanted to communicate with. And I said I’m fine with everyone. Again my job is
to communicate with everybody. But, [Williams] went ahead and picked three
people out of the audience.”).
a. Proposal One: On-Site Interpreters
After the March 1, 2013 meeting, Costco arranged for on-site interpreters at
large-group meetings but not for counseling or coaching sessions D’Onofrio
attended. (Doc. 119, p. 95; Doc. 120, p. 217; Doc 122, p. 59). She argues that many
of those sessions included at least three individuals, which, to her, meant that on-site
interpreters should have been provided on those occasions as well (as opposed to
simply the VRI technology being available). (Doc. 117, p. 76). Costco counters that
in the few counseling or coaching sessions involving three or more people present,
VRI was still an appropriate measure, given that these sessions were limited to
discussions between just two people (including D’Onofrio), with all others in the
room observing silently. (Doc. 119, pp. 111-12; Doc. 122, pp. 36, 54-56, 158-59).
b. Proposal Two: Limiting D’Onofrio’s Communications to a
Three-Manager Team
Implementing Williams’s second proposal, Costco also agreed to limit certain
communications with D’Onofrio to a specific three-manager team, composed of
Assistant General Manager Ainsley Brown, Hardlines Manager Carol Sivon, and
9

Case: 19-10663

Date Filed: 07/06/2020

Page: 10 of 44

Pharmacy Manager Jeff Weisler. (Doc. 117, pp. 60-64; Doc. 118, p. 182; Doc. 120,
pp. 43-50). This accommodation, however, came with certain qualifications, one
being that the three-manager team arrangement should not be considered an excuse
for D’Onofrio to avoid certain Costco managers, including Pack. (Doc 121, pp. 90,
115).

The aim of the arrangement was to facilitate D’Onofrio’s expanded

communication with other managers, as opposed to limit it. (Id. at 115). Sivon
underscored this objective, testifying that Powers had explicitly requested that
D’Onofrio not refuse to take instructions or directions from other managers in the
future. (Doc. 122, pp. 157-58).
Yet, even with these explicit warnings, D’Onofrio refused after the training to
interact with Pack. (Doc. 120, pp. 48, 50, 55, 57). This resistance led LiCastro to
contact D’Onofrio by letter on May 13, 2013, informing her that the three-person
arrangement was no longer feasible. This meant that going forward, D’Onofrio
would be expected to communicate with, and take directions from, Pack. (Id., p. 30;
Doc. 99-3). Yet, it appeared the functional effect of LiCastro’s letter was null, given
the three-manager arrangement continued beyond May 13, 2013. (Doc. 117, p 87).
D.

Alan Holliday’s Transfer to the Pompano Beach Warehouse: April 2013
In April 2013, Alan Holliday transferred to the Pompano Beach warehouse,

assuming the role of merchandise manager. (Doc. 122, p. 20). Holliday was a direct
supervisor of D’Onofrio, meaning the two interacted every day that they worked
10

Case: 19-10663

Date Filed: 07/06/2020

Page: 11 of 44

together. (Id. pp. 20-21). Holliday had not been able to attend the March 1, 2013
training because it predated his transfer. Nonetheless, D’Onofrio admitted that she
had no problems communicating with Holliday, and actually got along well with
him for the first several months that the two worked together. (Doc. 118, p. 13; Doc.
122, p. 20). Holliday came to the Pompano Beach warehouse with some knowledge
of sign language and a degree of familiarity with deaf culture, given he grew up with
a close relative who was deaf, and had socialized with the relative’s immediate deaf
community. (Doc. 118, p. 13; Doc. 122, pp. 21-22, 47). Holliday also was familiar
with VRI, having used VRI devices previously. (Doc. 122, p. 22). Upon his arrival
to the warehouse, Holliday received a tutorial from Pack in the VRI technology
available in the vicinity. (Id.).
1.

D’Onofrio’s Employment under Holliday: August 28 to October
18, 2013

There were, as noted, only two reported behavioral incidents involving
D’Onofrio between 2003 and 2012, but the situation changed while she was under
Holliday’s direction. Although they had gotten along well at the outset of his tenure
at the Pompano Beach warehouse, D’Onofrio testified that, in the fall of 2013,
Holliday began repeatedly to accuse her of being loud, angry, and insubordinate.
She also received a “flurry” of Employment Counseling Notices (ECNs) from
Holliday, relating to her behavior on the floor of Costco and in ECN meetings.
Appellant Br. at 18. This conduct included D’Onofrio’s reportedly talking loudly,
11

Case: 19-10663

Date Filed: 07/06/2020

Page: 12 of 44

yelling, being aggressive, demanding eye contact and making dramatic and emphatic
gestures. At ECN meetings in particular, D’Onofrio was twice suspended for
insubordination and unbecoming conduct, first on September 6, 2013 (Doc. 117, pp.
82-83; Jnt. Exh. 20), and again on October 18, 2013. (Doc. 117, p. 93; Jnt. Exh. 27).
Between August 28 and October 18, 2013, D’Onofrio was coached and
counseled on a number of occasions for inappropriate and insubordinate behavior.
(Doc. 99, pp. 30, 32-34). Although VRI was made available to D’Onofrio for all of
these coaching and counseling sessions, (Doc. 119, pp. 21, 27, 29, 103, 112, 116,
120-2), she frequently refused to use the technology. (Doc. 122, pp. 25, 29, 35, 40,
132, 163, 165-66); (Doc. 118, pp. 13, 42; Doc. 122, pp. 25, 35, 40, 163, 166). In
fact, even when asked explicitly by her managers to use VRI, D’Onofrio responded,
“why is everybody making such an issue about the VRI. I don’t [need] it. There is
no communication issue. Just talk to me.” (Doc. 117, p. 75). During several
counseling or coaching sessions, D’Onofrio even turned off, or attempted to turn off,
the VRI phone. (Id. p. 81; Doc. 118, p. 42; Doc. 122, pp. 25, 35, 166).
2.

D’Onofrio’s Suspension and Termination: October 2013

On October 18, 2013, D’Onofrio was suspended for repeated policy
violations,5 pending a review of possible termination. (Doc. 99, p. 39). Five days

5

These policy violations related to specific job-related responsibilities held by
D’Onofrio, and they did not relate specifically to her refusal to use the VRI technology.
12

Case: 19-10663

Date Filed: 07/06/2020

Page: 13 of 44

later, Pack met with D’Onofrio, informing her that her employment was being
terminated for excessive policy violations. (Doc. 99, p. 9; Doc. 117, p. 97). At the
October 23, 2013 meeting, D’Onofrio requested an in-person interpreter, which
Costco provided. (Doc. 117, p. 98).
E.

Procedural History
Approximately two years following her termination from Costco, D’Onofrio

filed a lawsuit against Costco in Florida state court. She advanced two causes of
actions, arguing she was discriminated and retaliated against, in violation of Florida
Civil Rights Act of 1992, Fla. Stat § 760.01 – § 760.11.6 (Doc. 1, p. 1). Costco
removed the case to the U.S. District Court for the Southern District of Florida on
the basis of diversity jurisdiction.
The case was tried before a jury from May 29 to June 11, 2018. At the close
of D’Onofrio’s case, Costco moved for judgment as a matter of law (JMOL)
pursuant to Federal Rule of Civil Procedure 50(a). The district court denied Costco’s
motion and sent the case to the jury.

The jury found in Costco’s favor on

D’Onofrio’s claim that she was illegally fired because of her disability and in
retaliation for internal complaints she raised about discriminatory treatment she
allegedly endured. (Doc. 103; Doc. 124, pp. 118-21). However, the jury found in
favor of D’Onofrio on her failure to accommodate claim under the FCRA. Based

6

The discrimination action under the FCRA is the only claim relevant to this appeal.
13

Case: 19-10663

Date Filed: 07/06/2020

Page: 14 of 44

on Costco’s liability, the jury awarded D’Onofrio $750,000 for emotional pain and
mental anguish, and $25,000 in punitive damages.
Costco renewed its JMOL motion, pursuant to Federal Rule of Civil
Procedure 50(b), and alternatively moved for a new trial or remittitur. (Doc. 126;
Doc. 127).

The district court granted Costco’s renewed JMOL motion and

conditionally granted its new trial motion in the event that the JMOL were reversed
on appeal. (Doc. 140). The district court concluded that no reasonable jury could
find that Costco did not provide a reasonable accommodation to D’Onofrio, as
Costco provided VRI devices in two locations within the Pompano Beach
warehouse, the March 1, 2013 deaf-culture training for warehouse managers in
D’Onofrio’s immediate chain of command, and on-site interpreters in certain
situations, including group meetings. (Doc. 140, p. 17). The court also conditionally
granted Costco’s motion for a new trial, reasoning that the great weight of the
evidence was against the jury’s verdict. (Doc. 140, pp. 26-27).
II.
A.

Standard of Review
This Court reviews de novo the district court’s grant of Costco’s motion for

judgment as a matter of law pursuant to Federal Rule of Civil Procedure 50. Abel v.
Dubberly, 210 F.3d 1334, 1337 (11th Cir. 2000) (per curiam). A court should enter
a JMOL only when there is “no legally sufficient evidentiary basis for a reasonable
14

Case: 19-10663

Date Filed: 07/06/2020

Page: 15 of 44

jury to find for [the nonmoving] party.” Home Design Servs., Inc. v. Turner Heritage
Homes Inc., 825 F.3d 1314, 1320 (11th Cir. 2016) (alteration in original) (quoting
Reeves v. Sanderson Plumbing Prods., Inc., 530 U.S. 133, 149 (2000)).
B.

Florida Civil Rights Act of 1992
Given the parallel structure of the statutes, this Court analyzes state-law

disability discrimination claims under the FCRA using the same framework as it
does for claims made under the federal Americans with Disabilities Act (ADA).
Samson v. Fed. Exp. Corp., 746 F.3d 1196, 1200 n. 2 (11th Cir. 2014); see Holly v.
Clairson Indus., LLC, 492 F.3d 1247, 1255 (11th Cir. 2007). To prevail on a failure
to accommodate claim under the FCRA, D’Onofrio must demonstrate by a
preponderance of the evidence that (1) she was a qualified individual with a
disability; (2) she made a specific request for a reasonable accommodation; and (3)
her employer, Costco, failed to provide a reasonable accommodation, or engage in
the requisite interactive process in order to identify a reasonable accommodation.
Gaston v. Bellingrath Gardens & Home, Inc., 167 F.3d 1361, 1363 (11th Cir. 1999)
(per curiam).
Here, both parties concede that D’Onofrio is a qualified individual with a
disability, Costco knew of her disability, and one or more reasonable
accommodations existed that would have allowed D’Onofrio to perform the essential
functions of her job. (Doc. 101, pp. 10-11). Consequently, we consider only
15

Case: 19-10663

Date Filed: 07/06/2020

Page: 16 of 44

whether Costco failed to provide a reasonable accommodation to D’Onofrio, or
engage in the requisite interactive process in order to identify a reasonable
accommodation for her.
C.

Failure to Accommodate
1.

Legal Standard and Findings Below

Under the ADA, an employer will not be liable for failure to accommodate
if the employee is responsible for the breakdown of the interactive process. Stewart
v. Happy Herman’s Cheshire Bridge, Inc., 117 F.3d 1278, 1287 (11th Cir. 1997).
Furthermore, “the [employer’s] duty to provide a reasonable accommodation is not
triggered unless a specific demand for an accommodation has been made” by an
employee. Gaston, 167 F.3d at 1363. Even if an employee is legally disabled, she
must specifically request an accommodation to trigger the employer’s
accommodation obligations. See id.
Of course, there are limits to the accommodations an employer must provide.
The key is “reasonability,” meaning an employer is not required to accommodate an
employee in any manner that the employee desires—or even provide that
employee’s preferred accommodation.

Stewart v. Happy Herman’s Cheshire

Bridge, Inc., 117 F.3d 1278, 1285-86 (11th Cir. 1997) (“[A]n employee is entitled
only to a reasonable accommodation and not to a preferred accommodation. . . .
Stated plainly, under the ADA a qualified individual with a disability is ‘not entitled
16

Case: 19-10663

Date Filed: 07/06/2020

Page: 17 of 44

to the accommodation of her choice, but only to a reasonable accommodation.’”
(internal citations omitted)).
Additional nuances to the reasonable accommodation framework are
important to highlight as well.

First, if an employee does not require an

accommodation to perform her essential job functions, then the employer is under
no obligation to make an accommodation, even if the employee requests an
accommodation that is reasonable and could be easily provided. See Hilburn v.
Murata Elecs. N. Am., Inc. 181 F.3d 1220, 1229 (11th Cir. 1999); see also Albright
v. Columbia Cty. Bd. of Educ., 135 F. App’x 344, 346 (11th Cir. 2005) (per curiam)
(“[T]he record clearly shows that [plaintiff] did not require an accommodation to
perform her job. It is undisputed that [plaintiff] performed her bus driving duties
without an accommodation[.]”). Second, even if an employer has voluntarily
provided accommodations to the employee historically, that employer is not
obligated to continue providing them and can discontinue such when they exceed
what is legally required under the ADA. See Holbrook v. City of Alpharetta, 112
F.3d 1522, 1528 (11th Cir. 1997) (“It is equally apparent, however, that the [City’s]
previous accommodation may have exceeded that which the law requires. . . . [W]e
cannot say that [its] decision to cease making those accommodations that pertained
to the essential functions of Holbrook’s job was violative of the ADA.”).

17

Case: 19-10663

Date Filed: 07/06/2020

Page: 18 of 44

When it granted Costco’s renewed Motion for JMOL, the district court made
two findings favorable to the FCRA claim: (1) D’Onofrio had presented sufficient
evidence that she had made a specific request for an accommodation in order to
mitigate the obstacles she was experiencing communicating with her General
Manager, Alan Pack; and (2) D’Onofrio had offered sufficient evidence showing her
deafness caused her communication problems with Pack, and that communication,
both in general with other employees, and specifically with her General Manager,
was an function of her Costco job. However, the district court also concluded that
(3) D’Onofrio still did not introduce sufficient evidence to support a jury finding that
Costco had failed to provide reasonable accommodations to help ease her
communication difficulties.
On appeal, D’Onofrio argues for reversal of the JMOL because the evidence
was legally sufficient to support the jury’s verdict that Costco failed to provide a
reasonable accommodation to her disability of deafness. In response, Costco does
not contest the district court’s first two findings in favor of D’Onofrio. It argues
only that we should affirm the district court’s third finding, which led to the JMOL.
For the reasons explained below, we find Costco’s argument persuasive.
2.

Evidence Regarding Reasonable Accommodation

The evidence of Costco’s reasonable accommodation included its installation
of the VRI equipment, organization of the deaf-culture training, and temporary
18

Case: 19-10663

Date Filed: 07/06/2020

Page: 19 of 44

institution of the three-manager communication circle. In response, D’Onofrio
introduced three pieces of undisputed evidence, which she believes “are
inconsistent” with the district court’s conclusion of reasonable accommodation:
• “Costco’s failure to train D’Onofrio’s [new] manager, Alan Holliday, about
‘deaf culture’ and the accommodations recommended by the Center for
Hearing and Communication,” even though Holliday’s arrival at the
Pompano Beach warehouse post-dated the March 1, 2013 training;
• “Costco’s discontinuation of the three-manager communication team after
only ten weeks, coupled with the demand that [D’Onofrio] then
communicate with Alan Pack, whom she perceived as hostile”; and
• “Costco’s failure to provide on-site sign language interpreters at every
[Employment Counsel ing Notice] ECN meeting, where three or
more people were always present, as recommended by the Center for
Hearing and Communication, instead bringing an on-site interpreter only
for the termination meeting.”
(Id. at 25).
According to D’Onofrio the “district court focused too heavily” on Costco’s
supplying of the VRI within its warehouse at the expense of the aforementioned
evidence.

This disproportionate focus, she explains, resulted in the court

“improperly credit[ing] Costco’s view of the evidence, i.e., that D’Onofrio
obstructed [the VRI’s] use,” as proof that D’Onofrio actually obstructed the provided
accommodation. Most problematically, as D’Onofrio explains, the district court’s
conclusion here was based on the “mistaken[] assumption that the VRI was a
reasonable accommodation,” (id. at 26), which in light of her above evidence,

19

Case: 19-10663

Date Filed: 07/06/2020

Page: 20 of 44

equated to a false premise. (Id.). Therefore, she believes “[a] reasonable jury,
making credibility determinations, could (and did) find” that the VRI was not a
reasonable accommodation. (Id.). However, as discussed below, none of the proof
that D’Onofrio cites is sufficient to support a jury finding of Costco’s failure to
accommodate.
a. Costco’s Initial Response to D’Onofrio’s Letter
The undisputed evidence shows that Costco took immediate redressive action
when D’Onofrio raised her concerns about Pack in her letter to Costco’s CEO. (Doc.
117, p. 38; Doc. 99-43). Costco responded by arranging in December 2012 for
Powers and LiCastro to fly in from Georgia and Washington state, respectively, to
meet with D’Onofrio, along with a sign-language interpreter, to better understand
her complaint and find ways to address it. (Doc. 117, pp. 147-48).
At the meeting, D’Onofrio had ample opportunity to reiterate the concerns in
her letter: namely, although she had had good communications with her general
managers in the past, she was then experiencing difficulties with Pack because he
mumbled and refused to write out his communications. She also stated that Pack
behaved impatiently and rude towards her. (Doc. 120, p. 37). To address these
problems, D’Onofrio proposed two solutions to Powers and LiCastro: (1) that Pack
be moved to another warehouse, (Doc. 117, p. 40); and (2) that Costco provide
training to her managers on deaf culture. (Id., p. 42) (“I felt like the managers
20

Case: 19-10663

Date Filed: 07/06/2020

Page: 21 of 44

needed some education, and I wanted to be included in that.”) On the latter point,
she requested that Costco ensure “that Alan Pack was a part of that [training] class.”
(Id., p. 44).
Costco responded appropriately to D’Onofrio’s two requests. Specifically, in
connection with D’Onofrio’s first request, Powers informed D’Onofrio that he
would not transfer Pack. (Doc. 117, p. 150). This was a legally permissible
response, as both this Court and the Equal Employment Opportunity Commission
(EEOC) have indicated that “[a] transfer [of an employee] from an incompatible
supervisor is not a ‘reasonable accommodation.’” Santandreu v. Miami-Dade
County, No. 10-24616-CIV-ALTONAGA, 2011 WL 13136161, at *11 (S.D. Fla.
Aug. 1, 2011) (citing Gaul v. Lucent Techs., Inc., 134 F.3d 576, 581 (3d Cir. 1998)),
aff’d, 513 F. App’x 902 (11th Cir. 2013); U.S. Equal Emp’t Opportunity Comm’n,
Enforcement Guidance on Reasonable Accommodation and Undue Hardship under
the

ADA

¶

33

(2002),

https://www.eeoc.gov/policy/docs/accommodation.html#workplace (“An employer
does not have to provide an employee with a new supervisor as a reasonable
accommodation.”). Still, however, Powers promised D’Onofrio that he would seek
to improve her communication with Pack. (Doc. 117, pp. 149-50). He followed up
on this promise less than a month after the meeting, when he advised D’Onofrio that
Costco would be installing VRI equipment in the Pompano Beach Warehouse not
21

Case: 19-10663

Date Filed: 07/06/2020

Page: 22 of 44

only to help facilitate her communications with Pack, but also to help her
communicate with other managers. (Id,, pp. 151-52). The technology was installed
by the end of January 2013. (Id,, pp. 52-53, 153).
Addressing D’Onofrio’s second explicit request within the same timeframe,
Costco also advised her that it would organize the type of deaf-culture training she
requested. (Id.). This session, hosted in conjunction with the Center for Hearing
and Communication, occurred on March 1, 2013. Everyone in D’Onofrio’s chain of
command, including Pack, attended the training. (Id. p. 155). We address the
evidence related to this training in the section that follows.
b. Costco’s Planning and Implementation of Deaf-Culture
Training
In preparation for the deaf-culture training, Costco brought in Williams for a
site visit with D’Onofrio. (Doc. 121 at 80–81). Williams and a colleague were
joined by D’Onofrio and three of her managers: Ainsley Brown, Carol Sivon, and
Jeff Weisler. (Id. at 81). The visit allowed Williams to “evaluate the environment”
at the Pompano Beach warehouse. (Id.). That way, Williams could do more than
offer a stock, generic training session; she could “train and tailor whatever
recommendations [she was] going to make to the environment that [was] being
presented to” her. (Id.). Williams testified that the visit was “very useful.” (Id.).
As for the training session itself, Williams also testified that she “felt it went
very well” and that “everybody was very amenable to the information they
22

Case: 19-10663

Date Filed: 07/06/2020

Page: 23 of 44

received.” (Id. at 85). D’Onofrio “was very happy with the session.” (Doc. 117, pp.
59–60).

Likewise, Pack thought the training was “very interesting” and

“informative.” (Doc 118, p. 168). Williams noted that, like the installation of the
VRI equipment, the training program represented a significant, meaningful
investment from Costco. Steve Powers even flew in for the training session, (Doc.
121, p. 83), which was significant, as Williams testified:
I train quite a bit, still do, and I haven’t ever seen a regional vice president fly
in for a training. I have never seen that. So I was very pleased and encouraged
that upper management was really involved in this process.
(Id. at 94–95). All in all, Williams thought the Costco team “did a really good job”
with the training, was “very open and receptive,” and went above and beyond what
she typically sees from employers. (Id. at 95).
D’Onofrio introduced no evidence to call into question the appropriateness of
the deaf-culture training for the employees who attended.
c. Alan Pack’s Follow-Up to the Deaf-Culture Training
The training session was tailored to the specific concerns about Alan Pack
expressed by D’Onofrio during her December 2012 meeting with Powers and
LiCastro. This was evident by the fact that part of the training session involved a
“constructive,” smaller group meeting between Powers, Pack, Williams, and
D’Onofrio. (Id. at 86). At that meeting, Pack and D’Onofrio “committed to coming
back and meeting with [Williams] in a mediation session.” (Id.). Pack also “offered
23

Case: 19-10663

Date Filed: 07/06/2020

Page: 24 of 44

to meet with [D’Onofrio] on site in their work environment every month and work
through any concerns that she might have.” (Id.).
After the training session, Pack was “very proactive.” (Id. at 87). However,
when he tried to schedule appointments with D’Onofrio, she would not agree to meet
with him. (Id.). So, on his own, Pack returned to the Center for one-on-one meetings
with Williams.

(Id.).

Those two meetings, Williams testified, were very

educational. (Id.). Pack came in “to see how he could respond [to D’Onofrio] better
and what he could learn.” (Id.). Williams recalled D’Onofrio’s complaint that Pack
mumbled, so she worked with him on “clarity without exaggerated speech and tone.”
(Id. at 88). Williams also testified that, at these one-on-one meetings, Pack
was not guarded. He wasn’t resistant. He felt very sincere to me. He asked
good questions. He seemed to take the information from our first session,
bring it in practice, and then come back to me and ask me, well this seemed
to work really well, this didn’t, what do you think, what can I do better. So he
seemed pretty motivated and genuine.
(Id. at 95). D’Onofrio offered no evidence to contradict the proof regarding Pack’s
participation in deaf-culture training and his efforts to learn from that training.
d. Costco’s VRI Technology
D’Onofrio testified that she did not request VRI, insisting that she simply
wanted Pack to communicate with her by writing:
I just wanted him to write to me. That’s all. We can write back and forth
when we need to communicate. That’s all I wanted.

24

Case: 19-10663

Date Filed: 07/06/2020

Page: 25 of 44

(Doc. 118, p. 13). On appeal, D’Onofrio couples her preference for “in-writing”
communication with Pack, with her argument that the VRI failed to represent a
“reasonable accommodation.” However, the problem with D’Onofrio’s argument is
two-fold.
First, although communication by writing back-and-forth with Pack may have
been D’Onofrio’s preferred mode of communication, an employer is not obligated
to accommodate an employee in any manner she desires; rather, the employer need
only provide a reasonable accommodation. Stewart, 117 F.3d at 1285-86.
Second, D’Onofrio presented no testimony as to the lack of “reasonability” of
the VRI technology; rather, she cites only three isolated statements made by Pack,
Powers, and Williams while testifying as evidence that Costco’s installation of VRI
equipment was not a reasonable accommodation.

Collectively, according to

D’Onofrio, these statements convey the testifiers’ beliefs that “the VRI alone was
not the solution to [D’Onofrio’s] communication problems,” “the VRI was just a
tool,” and “that the VRI alone was not enough to fully accommodate D’Onofrio’s
special needs.” (Appellant Br. at 15-17). The portions of these statements that
D’Onofrio cites are as follows:
• Pack’s Testimony
Q: And the reason [Costco] did several things to help her in her
accommodation was because the VRI machine alone was not enough without
training for the deaf culture, correct? You couldn’t do one without the other;
you needed both?
25

Case: 19-10663

Date Filed: 07/06/2020

Page: 26 of 44

A. [PACK]: Yes.
Q: The [three-manager communication] team was also designed to
accommodate her hearing impairment?
A. Yes.
(Doc. 118, p. 182).
• Powers’s Testimony
Q: You were not expecting at that point in time when you set up that meeting at
the center for the deaf culture that the VRI machine was the sole exclusive
answer to the communication problems that Christine was experiencing at
Costco, correct?
A. [POWERS]: No, it was just an assistance, a tool.
Q. Just an assistance?
A. Yes, sir.
(Doc. 120, p. 196).
• Williams’s Testimony
Q. Did you believe that the installation of the VRI phone by itself would solve
the communication issues that were existing between Christine and Mr. Pack?
A. [WILLIAMS]: I made a recommendation that they both come in to work
on some of their communication challenges, so I don’t think that was the only
intervention that we suggested.
Q. But the installation of the VRI phone by itself would not have solved all
the communication problems, correct?
A. No.
(Doc. 121, p. 128).
26

Case: 19-10663

Date Filed: 07/06/2020

Page: 27 of 44

These statements are insufficient to support a jury finding that Costco failed
to provide a reasonable accommodation. As that testimony itself suggests, Costco
did not rely on the VRI as its sole accommodation to D’Onofrio’s request. Instead,
the VRI was merely one solution amongst three it provided to D’Onofrio after she
voiced her concerns at the December 2012 meeting. Aside from the installment of
VRI equipment, Costco’s accommodations for D’Onofrio included the organization
of the deaf-culture training already mentioned, and the arrangement for the threeperson management communication team, discussed below.
Furthermore, Williams made other statements to demonstrate that the VRI
represented a reasonable accommodation. For one thing, Williams explained in her
testimony that the way in which Costco had set up the VRI phones was “very
effective.” (Doc. 121, p. 82). The phones provided D’Onofrio with “an on-demand
communicating tool to facilitate communication whenever [she] needed it,” (id. at
82-83), and Costco deliberately located them in convenient locations around the
warehouse, including placing one in the managers’ office, a location where informal
coaching, counseling notices, and performance evaluations took place, (Doc. 118 at
9), and in the pharmacy consultation room. (Id. at 9-10). Despite D’Onofrio’s
claims to the contrary, these locations were hardly out-of-the way spots. Quite to
the contrary, the pharmacy consultation room, for example, was “very close” to
where D’Onofrio worked, and gave her a “private space” where her manager could
27

Case: 19-10663

Date Filed: 07/06/2020

Page: 28 of 44

give instructions and where D’Onofrio could “make personal calls.” (Id. at 11–12).
Not only that, Costco even “offered to move [the phones] if they weren’t in a place
that Ms. D’Onofrio felt comfortable using” them. (Doc. 121, p. 82). Williams also
testified that the installation of the VRI equipment amounted to an “unusual”
commitment on Costco’s part.

(Id. at 84).

In her experience, Williams had

encountered “some challenges getting organizations to put in [the] technology,”
particularly because “the technology isn’t free for hearing people.” (Id.). Costco,
however, was willing to bear the expense of installing two “video phones in two
different offices,” (Id. at 94)—a commitment that Williams testified was “wonderful
to see” and “unusual.” (Id.).
We recognize that Williams did not provide testimony as an expert witness.
However, given her qualifications, which include being the Director of the Center
for Hearing and Communication, and the fact that she served as the instructor for the
deaf-culture training, Williams’s opinion warrants consideration regarding the
reasonableness of the VRI as an accommodation. And, at trial, Williams did attest
to the technology’s effectiveness in facilitating communication between a deaf
person and non-deaf person, which, as she also explained, was a function of the
technology’s reliance on an on-screen hearing and a speaking sign-language
interpreter.

28

Case: 19-10663

Date Filed: 07/06/2020

Page: 29 of 44

Additionally, LiCastro sent an email to D’Onofrio describing the benefits of
the VRI equipment two weeks before the phones’ installation. LiCastro explained
that the technology was easy to use and offered on-demand, video access to a
certified interpreter 24/7. (DX 8). Critically as well, the VRI equipment offered
specific advantages over an in-person interpreter: there was no need for the typical
two weeks’ advance notice to arrange the visit of the interpreter, and D’Onofrio
could access the VRI devices “as needed without the hassle of scheduling or rescheduling as needs change.” (Id.). Costco had already installed these devices in 26
of its stores and had seen them deliver “tremendous benefits.” (Id.).
Furthermore, as the district court rightly noted, the trial record is “utterly
devoid of any testimony that the VRI did not function adequately.” (Doc. 140 at
26). Instead, the evidence shows it was D’Onofrio who regularly refused to use the
phones or stood in the way of their proper functioning. As Holliday testified:
Q: What happened when you went into the pharmacy consultation room?
A: I attempted to start the VRI, and Ms. D’Onofrio ended the call before it
connected. And I go, no, we need to use this. And she goes, I don’t want to
use it. You can talk to me. I understand you just fine. And I go, no, I want to
be clear with what I have to tell you.
(Doc. 122 p. 25). Holliday described another meeting like this:
Q: Okay. So that was the meeting when this counseling notice was being
presented to Ms. D’Onofrio?
A: Correct.
29

Case: 19-10663

Date Filed: 07/06/2020

Page: 30 of 44

Q: Okay. And was a VRI machine used during that meeting?
A: It was not. She refused to use it. So [Ainsley] Brown agreed to write what
he had to say to her.
(Id. at 35).
e. Absence of Evidence that Costco Refused to Provide any of
D’Onofrio’s Requested Alternative Accommodations
D’Onofrio argues that Costco’s accommodations were not reasonable because
she requested alternative accommodations that were not granted.

However,

D’Onofrio cites no evidence to show that she requested alternative accommodations
that went unfulfilled. In particular, her argument on appeal about not being allowed
an on-site interpreter is without merit. She references only three alleged occasions
following the December 9, 2012 meeting where she claims she asked for an on-site
interpreter. (Doc. 117, pp. 76, 98). In each alleged instance, either the evidence was
not sufficiently clear that D’Onofrio, in fact, had made the request or the
uncontradicted proof was that Costco had granted her request.
For example, D’Onofrio claims that she asked for on-site interpreters in a July
8, 2013 email sent to LiCastro. (Id., p. 76; Doc. 99-25, pp. 2-3). But D’Onofrio
does not point to any specific statements where she made this request. In fact, the
email shows that D’Onofrio made no such request; rather, her reference to
interpreters involved her simply complaining that she should be compensated for not
having been given the benefit of interpreters in the past. (Doc. 99-25, pp. 2-3). The
relevant email text read as follows:
30

Case: 19-10663

Date Filed: 07/06/2020

Page: 31 of 44

You know what I never had an interpreter for 12 years. Costco violated the
policy. I had to complain all the time. I was too damn nice for not making
Costco responsible to pay me for my disability as a reasonable
accommodation. Costco is responsible to provide as an assistance with ADA
and also is reponsible [sic] to pay me for all those years.
(Id. at 2).
D’Onofrio also claims that even prior to the July 8 email, she made another
request for on-site interpreters. However, she could not remember the date when
she made this request and did not provide any other detail. (Doc. 117, p. 76) (“And
there was another request I put in prior to that, but I don’t remember the day.”). This
is not sufficient evidence of a request. Such a vague assertion, devoid of any context,
explanation of Costco’s response, or even a date, cannot support a finding that
Costco failed to make reasonable accommodation in not providing on-site
interpreters.
Finally, D’Onofrio acknowledges that she requested and was provided an onsite interpreter for her October 23, 2013 termination meeting with Costco. (Id. p.
98).
f. D’Onofrio’s Complaints Regarding Holliday
D’Onofrio also contends that the jury could have found that Costco failed to
provide reasonable accommodations for her by allowing Holliday, who transferred
into the Pompano Beach warehouse after the March 1, 2013 training program, to
interact with and supervise her without first ensuring that he received the same deaf31

Case: 19-10663

Date Filed: 07/06/2020

Page: 32 of 44

culture training that was provided to her other supervisors in that program.
(Appellant’s Br. at 25, 31, 35). Relatedly, she contends the training itself was
inadequate because Costco did not make the training materials widely available for
other employees at the Pompano Beach warehouse. We find these arguments
unpersuasive for several reasons.
First, as D’Onofrio repeatedly emphasized during her November 20, 2012
letter to Craig Jelinek, her December 12, 2012 meeting with LiCastro and Powers,
and during her testimony at trial, she never had any difficulty communicating with
any of her managers other than Pack. There is no evidence that she ever requested
that Holliday be trained in deaf culture. To the contrary, D’Onofrio testified that she
had no trouble communicating with Holliday, and also confirmed that Holliday knew
sign language. (Doc. 118, p. 13). Holliday, too, confirmed the good relationship
between the two; in his testimony, Holliday even described in detail their good
relations when he first arrived at the Pompano Beach warehouse, which included his
revealing to D’Onofrio that he had a deaf aunt with whom he was close while
growing up. And, because of this experience, he knew a bit of sign language. (Doc.
122, p. 21). Holliday also testified, without contradiction, that he was familiar with
deaf culture based on the time he spent with his aunt and her deaf friends, and he
had previously supervised deaf employees. (Id. pp. 47-48).

32

Case: 19-10663

Date Filed: 07/06/2020

Page: 33 of 44

Second, although Costco did not distribute the training materials to other
employees at the Pompano Beach warehouse, this Court does not require
accommodations provided by an employer to be perfect; our lodestar, instead, is
reasonability. The ADA does not impose liability on an employer for its failure to
provide “all the accommodations [the employee] feels are appropriate.” Doe v.
Dekalb Cty. Sch. Dist., 145 F.3d 1441, 1451 (11th Cir. 1998); see also Stewart, 117
F.3d at 1285 (explaining that “the word ‘reasonable’ would be rendered superfluous
in the ADA if employers were required in every instance to provide employees the
maximum accommodation or every conceivable accommodation possible”
(quotation omitted)). D’Onofrio asked for a training program on deaf culture, an
altogether reasonable request, and Costco provided a first-rate one.
Given the evidence assessed above, Costco sufficiently honored its
reasonable-accommodations obligations to D’Onofrio in providing deaf-culture
sensitivity training to Pack and the other managers in D’Onofrio’s direct chain of
command, without having to make Holliday undergo the same training. In response
to this evidence of Holiday’s background, D’Onofrio advances no reason why he
needed the training. Furthermore, her argument is at odds with case law stating that
the ADA, and by extension the FCRA, cannot interfere with an employer’s choice
of supervisors over a given employee. See Weiler v. Household Fin. Corp., 101 F.3d
519, 526 (7th Cir. 1996).
33

Case: 19-10663

Date Filed: 07/06/2020

Page: 34 of 44

g. D’Onofrio’s Complaint Regarding Use of VRI at Meetings of
Three or More Individuals
D’Onofrio also argues that VRI could not be considered a reasonable
accommodation for any meeting in which three or more individuals were present,
even if the only people speaking were her and her manager. (Appellant’s Br. at 25).
She bases this argument on information conveyed at the March 1, 2013 training by
Williams, who suggested that for large-group meetings (i.e. staff meetings or
inventory meetings) where people might be speaking, Costco should consider
providing an on-site interpreter.
We find D’Onofrio's line of argument to be unavailing. (Doc. 140, pp. 1820). To reiterate, D’Onofrio offers no evidence to establish that she ever submitted
a request for on-site interpreters that Costco failed to honor. And, in fact, Costco
regularly provided on-site interpreters in certain group settings.

Undisputed

evidence shows that on-site interpreters were in the room during D’Onofrio’s initial
meeting with Powers and LiCastro in December 2012 (Doc. 121, p. 108); when the
Pompano Beach warehouse distributed the latest version of Costco’s employee
handbook (Doc. 117, pp. 68-69); and when Pack fired D’Onofrio. (Id., p. 98). But
that is not all. Holliday testified that “[w]henever we had a meeting, we would set
up in advance an interpreter to come and interpret for” D’Onofrio. (Doc. 122 at 59).
And, as Pack testified, he even “hired a live interpreter, a physical person on site to
where [D’Onofrio] was in a meeting with other employees.” (Doc 118, p. 173). In
34

Case: 19-10663

Date Filed: 07/06/2020

Page: 35 of 44

response, D’Onofrio offers no evidence that Costco held any other large-group
meetings after the March 1, 2013 training program, for which an on-site interpreter
was not present.
On this note, as well, Williams testified that although the statements she made
during the deaf-culture training (about the on-site interpreter being preferable to the
VRI even in situations of a three-person meeting) were genuine indications of her
opinion, she did not believe that an on-site interpreter would be required in every
such case.7 D’Onofrio has not offered evidence to undermine this proposition.
Therefore, we are left only with Williams’s statement that an on-site interpreter is
not always necessary—a point demonstrated by the record, based on Williams’s
accompanying statements regarding the general effectiveness of the technology in
facilitating communication between deaf and non-deaf individuals. Furthermore,
we note the following: (1) evidence showing that there were typically, three, and
occasionally, four people in the room at the disciplinary meetings in which Costco
relied upon VRI; and (2) uncontradicted testimony from Costco employees that the
additional people in the meetings, beyond D’Onofrio and the manager, were
witnesses or observers who generally said nothing during the meetings. (Doc 140,
p 19).

7

To reiterate, Williams also explained that an on-screen interpreter, like the VRI, can still
work in a group setting, just not as easily or efficiently as an on-site interpreter would work. (Doc.
121, p. 111).
35

Case: 19-10663

Date Filed: 07/06/2020

Page: 36 of 44

Regardless of whether an on-site interpreter might have been preferable in the
opinion of Williams, there is simply no basis in the evidentiary record to conclude
that Costco’s use of a supposedly less preferable medium—VRI—represented a
failure to make reasonable accommodations. Stewart, 117 F.3d at 1285-86. This is
especially true, given the absence of any evidence that D’Onofrio ever requested an
on-site interpreter for these meetings, other than when she requested an interpreter
for her October 23, 2013 termination meeting, which Costco provided.
h. The Three-Person Management Circle
At the March 1, 2013 training, Williams also suggested that it might be helpful
for Costco to designate a small group of managers to be the primary people to
interact with D’Onofrio in relaying directions to her and answering her questions.
(Doc. 117, pp. 60-61; Doc. 121, p. 90). Costco agreed with the proposal, and
immediately implemented a three-person circle for D’Onofrio to primarily
correspond with during her workdays. However, Costco eventually decided to stop
the arrangement after it appeared to D’Onofrio’s supervisors that she was using the
accommodations as an excuse to avoid all communication with individuals beyond
that immediate circle. Nonetheless, D’Onofrio insists that Costco’s decision to
terminate the arrangement supports that jury’s finding that Costco failed to provide
reasonable accommodations.

36

Case: 19-10663

Date Filed: 07/06/2020

Page: 37 of 44

D’Onofrio’s argument is unpersuasive. Although Costco implemented the
three-person circle at the recommendation of Williams, D’Onofrio herself never
requested it. (Doc. 117, pp. 40, 42-43, 149). An employer has no obligation to make
any accommodation unless, and until, the employee specifically requests an
accommodation. See Gaston, 167 F.3d at 1363 (“[T]he duty to provide a reasonable
accommodation is not triggered unless a specific demand for an accommodation has
been made[.]”).

There is no evidence that D’Onofrio ever requested this

accommodation; therefore, Costco cannot be legally at fault for terminating an
arrangement it voluntarily implemented.
Moreover, when implementing this proposal, Costco made clear to D’Onofrio
that the arrangement “did not mean she could circumvent her managers.” (Doc. 121,
p. 115; Doc. 122 pp. 157-58). Notwithstanding this fact, under this Court’s case law,
any sort of accommodation that could be construed as essentially insulating
D’Onofrio from any need to interact with Pack (or other managers) beyond the three
designated primary points of contact, would have been unreasonable under the ADA.
See Gaul, 134 F.3d at 581 (ADA does not limit employer’s prerogative to determine
with whom employees will work within company); see also Weiler, 101 F. 3d at 526
(ADA does not require employer to transfer employee to a different supervisor or to
transfer supervisor). Relatedly, even if the accommodation had theoretically been
reasonable when implemented, an employer is allowed to discontinue
37

Case: 19-10663

Date Filed: 07/06/2020

Page: 38 of 44

accommodations that it had previously offered to an employee when those
accommodations exceed what is required by the ADA. See Holbrook, 112 F.3d at
1528; Schwertfager v. City of Boynton Beach, 42 F. Supp. 2d 1347, 1365 (S.D. Fla.
1999); Sheets v. Fla. E. Coast Ry. Co., 132 F. Supp. 2d 1031, 1035 (S.D. Fla. 2001).
i. Summary
Ultimately then, as we see it, D’Onofrio, understandably, needed help
communicating with Pack. She relied on lip reading to communicate with her
coworkers and supervisors, and Pack mumbled. So Costco installed two VRI
phones. However, D’Onofrio says that was not enough; she wanted her supervisors
to write back and forth with her. (JX 31; Doc. 117, p.68; Doc. 122 p. 35). Setting
aside our oft-repeated reminder that a plaintiff is entitled to a reasonable
accommodation, and not the specific accommodation of her choosing, see Stewart,
117 F.3d at 1286, the evidence shows that D’Onofrio’s supervisors, including Pack,
from time to time accommodated that request. (JX 25; JX 28; JX 29). But, even
that was not enough for D’Onofrio, as she further states that Costco needed to
provide in-person interpreters. But, we do not see any record evidence that suggests
Costco failed to provide an on-site interpreter once D’Onofrio requested this
accommodation. Again, to the contrary, we see evidence of the opposite: that Costco
provided on-site interpreters for group meetings, in addition to the VRI technology
for other communications. Therefore, the only accommodation Costco did not
38

Case: 19-10663

Date Filed: 07/06/2020

Page: 39 of 44

provide that D’Onofrio had specifically requested was to move Pack to another
location—and, given the circumstances of this case, Costco was not required to
honor that request by the ADA.
III.
We cannot hold that an employer fails to reasonably accommodate a deaf
employee when it provides her with on-demand access to live sign-language
interpreters at two, convenient locations within her place of work; when it goes
further to provide on-site person interpreters for larger, group meetings; when it
arranges a thorough training session on deaf culture, pursuant to the plaintiff’s
request; and when the plaintiff’s general manager—the supervisor who was the sole
subject of her sole complaint—resolves to improve his relationship with the plaintiff
by attending multiple, one-on-one training sessions. Therefore, because D’Onofrio
cannot point to “a specific instance in which she needed an accommodation and was
denied one,” Batson v. Salvation Army, 897 F.3d 1320, 1326 (11th Cir. 2018), we
AFFIRM the district court’s January 30, 2019 Order granting Costco’s motion for
judgment as a matter of law pursuant to Federal Rule of Civil Procedure 50(b).

39

Case: 19-10663

Date Filed: 07/06/2020

Page: 40 of 44

WILSON, Circuit Judge, dissenting:
Following a nine-day trial, a jury found in favor of Christine D’Onofrio—an
employee of Costco for over 20 years—on her claim that Costco failed to provide
reasonable accommodation for her disability of deafness.

The jury awarded

D’Onofrio $750,000 in damages for emotional pain and mental anguish and $25,000
in punitive damages. The district court then granted Costco’s renewed motion for
judgment as a matter of law and conditionally granted its motion for a new trial,
finding that no reasonable jury could have found that Costco failed to provide a
reasonable accommodation to D’Onofrio.
On appeal, D’Onofrio argues that the evidence was sufficient to support the
jury’s verdict because it showed that (1) the video remote interpreter (VRI) devices,
alone, were not a reasonable accommodation; (2) the deaf-culture training was
ultimately ineffective because one of her managers, Alan Holliday, never received
deaf-culture training; and (3) a three-member communication team was
discontinued. The majority sets forth trial testimony supporting Costco’s defenses
and affirms the district court. But the jury, after a nine-day trial where it heard the
testimony and observed the witnesses, found in favor of D’Onofrio on her failureto-accommodate claim, awarding not just compensatory damages, but also punitive
damages. I would reverse the judgment as a matter of law, as the jury was well

40

Case: 19-10663

Date Filed: 07/06/2020

Page: 41 of 44

within its prerogative to accept D’Onofrio’s evidence over Costco’s and make
credibility determinations. I therefore dissent.
I.
Judgment as a matter of law is only proper if there is “no legally sufficient
evidentiary basis for a reasonable jury to find for the nonmoving party.” Home
Design Servs., Inc. v. Turner Heritage Homes, Inc., 825 F.3d 1314, 1320 (11th Cir.
2016) (alteration adopted). “[I]t is the function of the jury as the traditional finder
of the facts, and not the Court, to weigh conflicting evidence and inferences, and
determine the credibility of witnesses.” Watts v. Great Atl. & Pac. Tea Co., 842
F.2d 307, 310 (11th Cir. 1988) (per curiam).
To prevail on her failure to accommodate claim, D’Onofrio had to show that
(1) she was disabled, (2) she was a “qualified” individual, and (3) she was subjected
to unlawful discrimination because of her disability. Samson v. Fed. Express Corp.,
746 F.3d 1196, 1200 (11th Cir. 2014). “[A]n employer’s failure to reasonably
accommodate an ‘otherwise qualified’ disabled employee itself constitutes unlawful
discrimination, unless the employer can show ‘undue hardship.’” Holly v. Clairson
Indus., L.L.C., 492 F.3d 1247, 1249 (11th Cir. 2007).
Here, a reasonable jury could have concluded that Costco failed to provide a
reasonable accommodation for D’Onofrio’s disability. First, D’Onofrio presented
sufficient evidence that the installation of the VRI devices was not a reasonable
41

Case: 19-10663

Date Filed: 07/06/2020

accommodation to her communication problems.

Page: 42 of 44

From the outset, D’Onofrio

expressed that her communication difficulties took place mostly on the sales floor—
where she performed her essential job functions—but the VRI devices were in a
managers’ office and a pharmacy consultation room. Further, while the district court
relied largely on the installation of the VRI devices in its order granting judgment as
a matter of law, Alan Pack, Steve Powers, and Dr. Shana Williams testified that the
VRI devices were not intended to be the only solution to D’Onofrio’s
communication problems.

Finally, D’Onofrio presented evidence that her

communication problems were due to certain managers’ apparent ignorance of deaf
culture—demonstrated by them failing to make eye contact, mumbling, and
negatively interpreting her use of body language—and a jury could reasonably
conclude that a VRI device did not address this issue in most circumstances.
A reasonable jury also could have concluded that the deaf-culture training did
not amount to a reasonable accommodation. While the training session with a
handful of managers was positive, D’Onofrio presented evidence that Costco did not
pass on that training information to other Costco employees or managers who
worked with D’Onofrio, even though Dr. Williams gave Costco training materials
that could have been given to other employees.
More specifically, a reasonable jury could have concluded that the failure to
train D’Onofrio’s subsequently hired manager, Holliday, in deaf culture resulted in
42

Case: 19-10663

Date Filed: 07/06/2020

a failure to provide reasonable accommodation.

Page: 43 of 44

The majority dismisses this

argument because D’Onofrio initially complained to Costco about problems with
Pack and because Holliday had a deaf aunt that he spent time with while growing
up. But the district court found that while D’Onofrio primarily struggled with
communicating with Pack, a reasonable jury could find that her request for
accommodation was sufficient to communicate that her deafness caused more
general communication problems and that her problems went beyond Pack. Further,
the assertion that Holliday could have no need for training in deaf culture because
he has one deaf relative sounds of tokenism, and a reasonable jury could have
concluded that he did need such training. Indeed, the jury heard evidence that
Holliday disciplined D’Onofrio for displaying “aggressive behavior” through her
body language, the volume of her voice, and demanding eye contact—behaviors that
D’Onofrio asserted were common within deaf culture.
Last, though the three-person communication team was initially effective, and
certainly not required, it was short term and there was no evidence that it resulted in
a lasting change to D’Onofrio’s communication problems with Costco managers.
Simply put, the implementation of this team for 10 weeks was not sufficient to
undermine the jury’s verdict that Costco failed to provide reasonable
accommodation.

43

Case: 19-10663

Date Filed: 07/06/2020

Page: 44 of 44

Accordingly, reasonable persons could have differed on the question of
whether Costco failed to reasonably accommodate D’Onofrio’s disability. The jury
acted within its role as the finder of facts “to weigh conflicting evidence and
inferences, and determine the credibility of witnesses.” Watts, 842 F.2d at 310.
Therefore, I would reverse the district court’s order granting judgment as a matter
of law.
For similar reasons, I would reverse the district court’s conditional grant of
the motion for a new trial. See Hewitt v. B.F. Goodrich Co., 732 F.2d 1554, 1556
(11th Cir. 1984) (stating that a motion for a new trial is proper only where the jury’s
verdict is against the clear weight of the evidence or would result in a miscarriage of
justice).

44

APPENDIX B

Case: 19-10663

Date Filed: 08/19/2020

Page: 1 of 1

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
______________
No. 19-10663-CC
______________
CHRISTINE D'ONOFRIO,
Plaintiff - Appellant,
versus
COSTCO WHOLESALE CORPORATION,
Defendant - Appellee.
__________________________________________
Appeal from the United States District Court
for the Southern District of Florida
__________________________________________
BEFORE: WILSON, MARCUS and BUSH,* Circuit Judges.
PER CURIAM:
The Petition for Panel Rehearing filed by Christine D’Onofrio is DENIED.

ORD-41
* Honorable

John K. Bush, United States Circuit Judge for the Sixth Circuit, sitting by designation.

APPENDIX C

Case 0:15-cv-62065-WJZ Document 140 Entered on FLSD Docket 01/30/2019 Page 1 of 27

UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF FLORIDA
CASE NO. 15-62065-CIV-ZLOCH
CHRISTINE D’ONOFRIO,
Plaintiff,
O R D E R

vs.

COSTCO WHOLESALE CORPORATION,
Defendant.
/
THIS

MATTER

is

before

the

Court

upon

Defendant

Costco

Wholesale Corporation’s Renewed Motion For Judgment As A Matter Of
Law Under Rule 50(b) (DE 126) and Motion For New Trial And/Or
Remittitur Under Rule 59 (DE 127).

The Jury returned a Verdict (DE

103) on June 11, 2018, finding that Defendant Costco Wholesale
Corporation (hereinafter “Defendant”) failed to provide Plaintiff
Christine D’Onofrio (hereinafter “Plaintiff”)

with reasonable

accommodations after December 9, 2012, and awarding Plaintiff
$750,000 to compensate her for emotional pain and mental anguish
proximately

caused

by

Defendant’s

denial

of

said

reasonable

accommodations, as well as $25,000 in punitive damages with respect
to this same claim. The Court has carefully reviewed said Motions,
the entire court file and is otherwise fully advised in the
premises.
I.

Background

Plaintiff initiated the above-styled cause with the filing of
her Complaint (DE 1-1) in the Circuit Court of the Seventeenth

Case 0:15-cv-62065-WJZ Document 140 Entered on FLSD Docket 01/30/2019 Page 2 of 27

Judicial Circuit, in and for Broward County, Florida.
filed its Notice Of Removal (DE 1).

Defendant

Plaintiff, a hearing impaired

individual, asserted two causes of action for discrimination and
retaliation pursuant to the Florida Civil Rights Act of 1992, Fla.
Stat. § 760.01, et seq. (hereinafter the “FCRA”).

This matter was

tried

and

before

a

jury

on

May

29-31,

June

4-8,

11,

2018.

Defendant initially made its Motion For Judgment As A Matter Of Law
Under Rule 50(a) (DE 94) at the close of Plaintiff’s case, and this
Motion was renewed at the close of Defendant’s Case.

See DE 96.

The Court denied both of Defendant’s Rule 50(a) Motions.

Id.

In

addition to finding that Defendant failed to provide Plaintiff with
a

reasonable

accommodation,

the

Jury

also

found

in

favor of

Defendant, that Defendant had not discriminated against Plaintiff
by terminating Plaintiff due to her disability and that Defendant
had not terminated Plaintiff in retaliation for her complaints
about discrimination or request for accommodation.
Defendant argues that its instant Motion (DE 126) should be
granted and judgment entered in its favor because, during the
relevant time period, beginning on December 9, 2012, Plaintiff did
not prove at trial, by a preponderance of the evidence, and thus,
no reasonable jury could find, that Plaintiff made a specific
request for accommodation, that Plaintiff needed an accommodation
to perform an essential job function, or that Defendant failed to
provide Plaintiff with a reasonable accommodation.

2

Case 0:15-cv-62065-WJZ Document 140 Entered on FLSD Docket 01/30/2019 Page 3 of 27

II. Standard For Rule 50 and Rule 59 Motions
Federal Rule of Civil Procedure 50(b) states: “the movant may
file a renewed motion for judgment as a matter of law and may
include an alternative or joint request for a new trial under Rule
59.”

Rule 50(c)(1) provides that, “If the court grants a renewed

motion for judgment as a matter of law, it must also conditionally
rule on any motion for a new trial by determining whether a new
trial should be granted if the judgment is later vacated or
reversed.

The court must state the grounds for conditionally

granting or denying the motion for a new trial.”

And, pursuant to

Rule 59, “The court may, on motion, grant a new trial on all or
some of the issues —— and to any party —— as follows: (A) after a
jury trial, for any reason for which a new trial has heretofore
been granted in an action at law in federal court.”
In evaluating the instant Renewed Motion For Judgment As A
Matter Of Law Under Rule 50(b) (DE 126), the Court notes that it
has considered

all

of

the

evidence

and

the

inferences

drawn

therefrom in the light most favorable to the non-moving party.

If

the facts and inferences point overwhelmingly in favor of one
party, such that reasonable people could not arrive at a contrary
verdict, a motion for judgment as a matter of law should be
granted.

Bishop v. City of Birmingham Police Dept., 361 F.3d 607,

609 (11th Cir. 2004) (citing Carter v. City of Miami, 870 F.2d 578,
581 (11th

Cir.

1989)).

Conversely,

3

if

there

is

substantial

Case 0:15-cv-62065-WJZ Document 140 Entered on FLSD Docket 01/30/2019 Page 4 of 27

evidence opposed to the motion such that reasonable people, in the
exercise of impartial judgment, might reach different conclusions,
then such motion must be denied.

Id.

There must be a substantial

conflict in the evidence to create a jury question.
scintilla of evidence will not suffice.

A mere

Bishop, 361 F.3d at 609

(citing Anderson v. Liberty Lobby, Inc., 477 U.S. 242, 251-52
(1986)).

Moreover, the Court may not weigh the evidence or

evaluate the credibility of the witnesses.

Edic v. Century Prods.

Co., 364 F.3d 1276, 1283 (11th Cir. 2004) (citing Lipphardt v.
Durango Steakhouse of Brandon, Inc., 267 F.3d 1183, 1186 (11th Cir.
2001)). As the Eleventh Circuit has explained, “Under Rule 50, the
‘proper

analysis

is

squarely

and

narrowly

focused

on

the

sufficiency of evidence,’ that is whether the evidence is ‘legally
sufficient to find for the party on that issue.’” Chmielewski v.
City of St. Pete Beach, 890 F.3d 942, 948 (11th Cir. 2018) (quoting
Chaney v. City of Orlando, 483 F.3d 1221, 1227 (11th Cir. 2007)).
Because the Court will grant Defendant’s Renewed Rule 50(b)
Motion (DE 126), the Court will conditionally address, as it is
required to do, Defendant’s Rule 59 Motion (DE 127). In Lipphardt,
the Eleventh Circuit described the applicable standard for granting
a Rule 59 motion for a new trial:
A judge should grant a motion for a new trial when “the
verdict is against the clear weight of the evidence or
will result in a miscarriage of justice, even though
there may be substantial evidence which would prevent the
direction of a verdict.” Because it is critical that a
judge does not merely substitute his judgment for that of
the jury, “new trials should not be granted on
4

Case 0:15-cv-62065-WJZ Document 140 Entered on FLSD Docket 01/30/2019 Page 5 of 27

evidentiary grounds unless, at a minimum, the verdict is
against the great—not merely the greater—weight of the
evidence.”
267 F.3d at 1186 (quoting Hewitt v. B.F. Goodrich Co., 732 F.2d
1554, 1556 (11th Cir. 1984)).

There is a significant distinction

between the standard applied in evaluating a Rule 50 motion and a
Rule 59 motion: “‘Although a trial judge cannot weigh the evidence
when confronted with a motion (for judgment) notwithstanding the
verdict [a Rule 50(b) motion for judgment as a matter of law], in
a motion for a new trial the judge is free to weigh the evidence.’”
Williams v. City of Valdosta, 689 F.2d 964, 973 (11th Cir. 1982)
(quoting Rabun v. Kimberly-Clark Corp., 678 F.2d 1053, 1060 (11th
Cir. 1982)(citing King v. Exxon Co., 618 F.2d 1111, 1115 (5th Cir.
1980))).
III. Analysis
Plaintiff brings all of her claims, including the failure to
accommodate

claim,

pursuant

to

the

FCRA.

“[D]isability-

discrimination claims under the FCRA are analyzed using the same
framework as ADA claims.”

Holly v. Clairson Indus., LLC, 492 F.3d

1247, 1255 (11th Cir. 2007)(citing D’Angelo v. ConAgra Foods, Inc.,
422 F.3d 1220, 1224 n.2 (11th Cir. 2005)).

The Americans With

Disabilities Act, 42 U.S.C. § 12101, et seq. (hereinafter “ADA”),
prohibits an employer from discriminating against an employee on
the basis of disability.

It reads, in pertinent part:

No covered entity shall discriminate against a qualified
individual on the basis of disability in regard to job
5

Case 0:15-cv-62065-WJZ Document 140 Entered on FLSD Docket 01/30/2019 Page 6 of 27

application procedures, the hiring, advancement, or
discharge of employees, employee compensation, job
training, and other terms, conditions, and privileges of
employment.
42 U.S.C. § 12112(a).

The elements of a prima facie case of

discrimination are: (1) Plaintiff is disabled; (2) Plaintiff is a
‘qualified individual,’ as referenced above, within the meaning of
the ADA, which means that Plaintiff “could perform the essential
functions

of the

job in

question

with

or

without reasonable

accommodations”; and (3) Defendant discriminated against Plaintiff
because of the disability.

Lucas v. W.W. Grainger, Inc., 257 F.3d

1249, 1255 (11th Cir. 2001) (citing Reed v. Heil Co., 206 F.3d
1055, 1061 (11th Cir. 2000)).

Under the ADA, “an employer’s

failure to reasonably accommodate a disabled individual itself
constitutes

discrimination

under

the

ADA,

so

long

as

that

individual is ‘otherwise qualified,’ and unless the employer can
show

undue

original).

hardship.

Holly,

492

F.3d

at

1262

(emphasis

in

Here, the relevant provision states that among the

definitions of discrimination in 42 U.S.C. § 12112(a) is:
not making reasonable accommodations to the known
physical or mental limitations of an otherwise qualified
individual with a disability who is an applicant or
employee, unless such covered entity can demonstrate that
the accommodation would impose an undue hardship on the
operation of the business of such covered entity
Id.

at

§

12112(b)(5)(A).

The

ADA

defines

a

reasonable

accommodation:
(A) making existing facilities used by employees readily
accessible
to
and
usable
by
individuals
with
6

Case 0:15-cv-62065-WJZ Document 140 Entered on FLSD Docket 01/30/2019 Page 7 of 27

disabilities; and
(B) job restructuring, part-time or modified work
schedules, reassignment to a vacant position, acquisition
or modification of equipment or devices, appropriate
adjustment or modifications of examinations, training
materials or policies, the provision of qualified readers
or interpreters, and other similar accommodations for
individuals with disabilities.
Id. at § 12111(9)(A)-(B).

An accommodation is reasonable, and

hence required by the ADA, “only if it enables the employee to
perform the essential functions of the job.”
1255.

Lucas, 257 F.3d at

See also Williams v. Revco Discount Drug Centers, Inc., 552

Fed. App’x 919, 921-22 (11th Cir. 2014) (explaining the standard
for succeeding on a reasonable accommodation claim in the same
way).

The

mere

fact

that

an

accommodation

appears

in

the

definition’s list does not mean that the particular accommodation
is reasonable for the particular Plaintiff.
F.3d 621, 626 (11th Cir. 1998).

Terrell v. USAir, 132

This inquiry is carried out within

the context of specific circumstances.

Id. (citing Wernick v.

Federal Reserve, 91 F.3d 379, 385 (2d Cir. 1996)).
Before Defendant has a duty to provide such an accommodation,
Plaintiff must make a specific request.

See Gaston v. Bellingrath

Gardens & Home, Inc., 167 F.3d 1361, 1363 (11th Cir. 1999) (citing
Wood v. President and Trustees of Spring Hill College in the City
of Mobile, 978 F.2d 1214, 1222 (11th Cir. 1992) (“[O]ur holding in
Wood that the duty to provide a reasonable accommodation is not
triggered unless a specific demand for an accommodation has been

7

Case 0:15-cv-62065-WJZ Document 140 Entered on FLSD Docket 01/30/2019 Page 8 of 27

made, is binding precedent for purposes of defining the scope of
the duty to provide a reasonable accommodation under the ADA.”).
Plaintiff

must make

a

request,

but

the

Eleventh

Circuit

has

favorably cited, very recently, a Tenth Circuit case which held
that the employee “‘need not use magic words,’ but ‘should provide
enough information about his or her limitations and desires’” in
that case,

relating

to

job

reassignment.

Adigun

v.

Express

Scripts, Inc., No. 17-15225, 2018 WL 3752403, at *2 (11th Cir. Aug.
7, 2018) (quoting Smith v. Midland Brake, Inc., 180 F.3d 1154, 1172
(10th Cir. 1999)).

Some courts have even indicated that there are

situations in which a plaintiff’s need is “sufficiently obvious”
that a defendant may be on notice even without a specific request.
See, e.g., Jacobson v. City of West Palm Beach, No. 16-cv-81638MIDDLEBROOKS, 2017 WL 6366841, at *7 (S.D. Fla. May 16, 2017);
McCullum v. Orlando Regional Healthcare System, Inc., No. 6:11-cv1387-Orl-31GJK, 2013 WL 1212860, at *4 (M.D. Fla. Mar. 25, 2013)
(citing Robertson v. Las Animas County Sheriff’s Dep’t, 500 F.3d
1185, 1197 (10th Cir. 2007); Taylor v. Principal Financial Group,
Inc., 93 F.3d 155, 164 (5th Cir. 1996)).
Sufficient evidence in the record supports a finding that
Plaintiff made a request, which was specific enough that Defendant
understood her need for accommodation.

Plaintiff testified that

Alan Pack became the General Manager at the Pompano Beach location
in

2012.

DE

117

at

34:6-11.

8

Because

she

had

difficulty

Case 0:15-cv-62065-WJZ Document 140 Entered on FLSD Docket 01/30/2019 Page 9 of 27

communicating with Mr. Pack, she sent a letter to Defendant’s
President and Chief Executive Officer Craig Jelinek. See DE 117 at
38:3-6.

This November 20, 2012 letter (Joint Exh. 31, DE 99-43)

makes clear that Plaintiff is “a born deaf person,” and that she is
having a communication problem, even if her articulation of this
communication problem focuses on her relationship with Mr. Pack: “I
have always been able to communicate with my managers.

I am a lip

reader and can speak well, however, Mr. Pact [sic] mumbles when he
talks so I asked him to please write down what he was saying to me.
Not only did he refuse, but his attitude towards me was very
disrespectful and sarcastic.” Joint Exh. 31, DE 99-43. The letter
itself was sent prior to the December 2012 time period; however, in
response

to

this

letter,

Defendant

initiated

a

meeting

with

Plaintiff to discuss her concerns, which took placed within the
applicable time period on December 12, 2012.

DE 117 at 41:12.

Plaintiff describes this meeting with Steve Powers, Regional Vice
President, and Angela LiCastro, from Defendant’s Human Resources
Department:

“We had a meeting to discuss what had happened with

this letter. . . . We talked about the communication issues. . . .
I just simply recommended —— I just made a friendly recommendation
if they were able to move Pack to another warehouse.”
40:20-25.

DE 117 at

When Plaintiff was asked about other recommendations

that arose from the discussion at the meeting, she explained that
the

Video

Remote

Interpreting

(hereinafter

9

“VRI”)

phone

was

Case 0:15-cv-62065-WJZ Document 140 Entered on FLSD Docket 01/30/2019 Page 10 of 27

mentioned, but to her mind, not fully explained.
42:4-15.

See DE 117 at

And, Plaintiff says she recommended training, but that

Defendant said that they could not do that.

Id.

She acknowledges

that later, Defendant agreed to provide the training, and that she
had a positive response to this development.

See DE 117 at 43:11-

24.
From the December 2012 meeting, Mr. Powers testified that
there were “two takeaways”: “Apparently [Mr. Pack] mumbles, and she
wasn’t able to read his lips.

So that’s a big problem if she can’t

understand the general manager.

And the other thing that came out

of

was

the

meeting,

my

takeaway,

that

[Plaintiff]

felt

very

strongly that Costco just didn’t understand the deaf culture. . .
.

Again,

the

two

takeaways

that

I

remember

were

lack

of

communication and that we needed to do a better job of educating
Costco on the deaf culture.”

DE 120 at 191:4-21.

When asked about

the result of the meeting and if Plaintiff required accommodations,
Ms. LiCastro responded: “That we were looking into different
things.

She hadn’t requested anything.

We were just trying to

find different ways to improve communication.” DE 120 at 22:22-24.
Ms. LiCastro again stated that, “I felt that the communication
problem she was having was unique to her and Mr. Pack,” rather than
“unique to deaf people.”

DE 120 at 36:21-24.

But, Ms. LiCastro

also affirmatively answered the question: “So is it fair to say at
the December meeting, you acknowledge that [Plaintiff] had a need

10

Case 0:15-cv-62065-WJZ Document 140 Entered on FLSD Docket 01/30/2019 Page 11 of 27

for special accommodation?”

DE 119 at 223:13-16.

While the testimony of Plaintiff agrees with that of Mr.
Powers and Ms. LiCastro, that Plaintiff primarily struggled with
communicating with Mr. Pack, a reasonable jury could find that
Plaintiff’s request for accommodation was specific enough as to
communicate that her deafness caused communication problems, even
if these communication problems primarily arose between herself and
her general manager. Defendant was aware of her deafness, began an
interactive process with Plaintiff that was cognizant of this
disability, and took measures consistent with this understanding,
that

being

deaf

posed

communication

difficulties.

Plaintiff

indicated specifically enough that the problem, at least to some
extent, went beyond Mr. Pack through her comments about the deaf
culture and her recommendation of training, a recommendation upon
which Defendant ultimately acted.
Sufficient evidence in the record also supports a finding that
communication, and specifically communication with her general
manager, was essential to Plaintiff’s job function.

There was no

testimony that Plaintiff needed any accommodation to actually
undertake the actions to perform any of her daily tasks.

As

detailed above, Plaintiff’s need as understood by both herself and
Mr.

Powers

and

Ms.

LiCastro

was

related

to

communication.

Specifically, she had difficulty communicating with Mr. Pack.
Plaintiff herself admitted that she had from 15 to 20 managers at

11

Case 0:15-cv-62065-WJZ Document 140 Entered on FLSD Docket 01/30/2019 Page 12 of 27

her former location in Davie and that she did not have trouble
communicating with any of these managers.

See DE 117 at 11:2-5.

And, at the Pompano Beach location, where she estimated she had 20
to 25 managers, she again stated, that until 2011, she did not have
any trouble communicating with a manager.

See DE 117 at 22:19-23.

Plaintiff described her communication with Mr. Pack, which prompted
her to write the letter quoted above: “Because Pack refused to
communicate with me.

He would mumble.

I couldn’t understand him.

And he would say to me why are you always moving your hands in the
air.

Can’t you lip read.

It was very rude.

sarcastic, and it was very hurtful.

It was very

I also told him that I have

always been able to communicate with all of my other managers, but
I am not able to communicate with him.
me.”

DE 117 at 38:15-22.

He refuses to even write to

Plaintiff stated that she did not ask

for the VRI and that she did not have a problem communicating and
did not need the VRI.

See DE 117 at 68:10-13.

But at the same

time, she also testified that she did not need the VRI because she
could communicate by writing back and forth.

Id. at 68:17-20.

Because courts generally defer to employers in framing the
essential
employees’

functions
statements

of

a

job,

highly

the

relevant

Court
in

finds

Defendant’s

determining

that

a

reasonable jury certainly could have concluded that communicating
with Mr. Pack was essential to Plaintiff’s position.

As to this

point, Plaintiff’s past job performance, particularly outside of

12

Case 0:15-cv-62065-WJZ Document 140 Entered on FLSD Docket 01/30/2019 Page 13 of 27

the relevant time period, is not determinative.

The testimony of

Plaintiff and Ms. LiCastro agree as to a conversation they had in
which Plaintiff stated that she refused to communicate with Mr.
Pack, and

Ms.

LiCastro

informed

Plaintiff

that

she

could be

disciplined for not communicating with the general manager. See DE
117 at 55:16-24; DE 120 at 5:3-6.

Admittedly, this conversation

makes a slightly different point than whether communication with
Mr. Pack was essential to Plaintiff’s job.

But the consistency

with which all of Defendant’s employees in leadership positions
state that Plaintiff was not excused from communicating with her
general

manager

indicate

that

Defendant

is

incorrect

in

its

argument that no reasonable jury could find this communication to
be essential to the job.
the general manager.

On this point, Mr. Powers answers, “He’s

She’s the employee.

I think that if [Mr.

Pack] needs to communicate with her, then he should be able to
communicate

with

her.”

DE

120

at

215:18-23.

Ms.

LiCastro

testified that one of the problems with maintaining the threeperson communication team, which will be discussed in more detail
below, was that Plaintiff was not communicating with her general
manager.

DE 120 at 48:5-10.

And again, as to this same point, Mr.

Powers’s testimony is consistent with Ms. LiCastro’s: “[W]e needed
to make sure that she understood that she needed to continue to
communicate with Mr. Pack.”

DE 121 at 4:20-21.

As has been discussed above, the Court will not here find that

13

Case 0:15-cv-62065-WJZ Document 140 Entered on FLSD Docket 01/30/2019 Page 14 of 27

no reasonable jury could have found for Plaintiff as to whether
Plaintiff’s request was specific enough, or whether communicating
with

Mr.

Pack

was

actually

essential

to

Plaintiff’s

job.

Nevertheless, the Court here finds that no reasonable jury could
find that Defendant did not provide a reasonable accommodation to
Plaintiff.

At least within the applicable time period, beginning

in December of 2012 and continuing up to Plaintiff’s termination,
Defendant provided accommodations which were reasonable. While the
accommodation provided must be reasonable, this requirement does
not mean that the accommodation must be in the exact form in which
Plaintiff asks or wishes to be accommodated.

See Doe v. Dekalb

Cnty. Sch. Dist., 145 F.3d 1441, 1451 (11th Cir. 1998) (citing
Stewart v. Happy Herman’s Cheshire Bridge, Inc., 117 F.3d 1278,
1285 (11th Cir. 1997) (“In making this determination, we do not ask
whether an employer has made all accommodations it feels are
appropriate, or whether an employer has made all the accommodations
that a disabled plaintiff desires.

Instead, we decide whether a

requested accommodation ‘would impose an undue hardship on the
employer.’”)).

The court in Stewart was at pains to make clear

that the concept of a reasonable accommodation does not mean that
a

disabled

individual

is entitled

accommodates her disability.

to

choose

how

an

117 F.3d at 1285-86.

employer
See also

Shepard v. United Parcel Service, Inc., 470 Fed. App’x 726, 730
(11th Cir. 2012) (citing Stewart, 117 F.3d at 1285) (further

14

Case 0:15-cv-62065-WJZ Document 140 Entered on FLSD Docket 01/30/2019 Page 15 of 27

citations

omitted);

Matthews

Development Dist., No.

v.

Village

Center

Community

5:05-cv-344-Oc-10GRJ, 2006 WL 3422416, at

*15 (M.D. Fla. Nov., 28, 2006) (“Although this may not have been
[Plaintiff’s] preferred accommodation, the ADA (and in turn the
FCRA) does not require that [Defendant] accommodate [Plaintiff] in
any way she sees fit.”).
required

to

provide

Certainly, an employer is not legally

the

conceivable’ accommodation.

‘maximum’

accommodation

or

‘every

Stewart, 117 F.3d at 1285 (quoting

Lewis v. Zilog, 908 F. Supp. 931, 947 (N.D. Ga. 1995)).

In

Santandreu v. Miami-Dade County, the district court explored a
process through which an employer might be obligated to seek
‘technical

assistance’

in

order

to

identify

an

appropriate

accommodation, but still concluded, “It is then the employer’s
decision, with the individual’s preference considered, as to which
accommodation is most appropriate.” 10-24616-CIV-ALTONAGA, 2011 WL
13136161, at *10 (S.D. Fla. Aug. 1, 2011).
specifically

noted

that,

“A

transfer

This case also

from

an

incompatible

supervisor is not a ‘reasonable accommodation.’”

Id. at *11

(citing Gaul v. Lucent Techs., Inc., 134 F.3d 576, 581 (3d Cir.
1998).

Further, “[T]he employer may chose the least expensive

accommodation or the accommodation that is easiest for the employer
to provide.”

Sheets v. Florida East Coast Railway Co., 132 F.

Supp. 2d 1031, 1035 (S.D. Fla. 2001) (citing Hankins v. The Gap,
Inc., 84 F.3d 797, 800 (6th Cir. 1996)).

15

And, the court in

Case 0:15-cv-62065-WJZ Document 140 Entered on FLSD Docket 01/30/2019 Page 16 of 27

Holbrook v. City of Alpharetta explained that even if an employer
offered

an

accommodation

which

“exceeded

that

which

the

law

requires” in the past, doing so does not bind the employer to offer
that accommodation in perpetuity.

112 F.3d 1522, 1528 (11th Cir.

1997).
The cases discussing failure to accommodate claims take great
care in explaining the Parties’ respective burdens of persuasion.
The Eleventh Circuit has held that, “The plaintiff retains at all
times

the

burden

of

persuading

the

jury

that

reasonable

accommodations were available,” and, “The employer, on the other
hand, has the burden of persuasion on whether an accommodation
would impose an undue hardship.”

Holbrook, 112 F.3d at 1526

(citing Moses v. American Nonwovens, Inc., 97 F.3d 446, 447 (11th
Cir. 1996); Monette v. Electronic Data Sys. Corp., 90 F.3d 1173,
1183 (6th Cir. 1996)).

But, an employer is not required to

demonstrate that there is an undue hardship until an employee has
shown that a reasonable accommodation exists.

Earl v. Mervyns,

Inc., 207 F.3d 1361, 1367 (11th Cir. 2000) (citing Willis v.
Conopco, Inc., 108 F.3d 282, 286 (11th Cir. 1997)).

In defining

the plaintiff’s burden, the court in Stewart described two aspects:
“the burden of identifying an accommodation that would allow a
qualified individual to perform the job,” and “the ultimate burden
of

persuasion

with

respect

accommodation is reasonable.”

to

demonstrating

that

such

an

117 F.3d at 1286 (citing Willis v.

16

Case 0:15-cv-62065-WJZ Document 140 Entered on FLSD Docket 01/30/2019 Page 17 of 27

Conopco, 108 F.3d 282, 283 (11th Cir. 1997)).

In Tate v. Potter,

the

the

district

concluded,

court

“Thus,

applied

where

the

the

law

employer

about
has

burdens,

already

and

offered

reasonable accommodation, the statutory inquiry is at an end.

a

The

employer need not further show that the employee’s suggested or
alternative accommodations would result in undue hardship.”

04-

61509-CIV-JORDAN, 2008 WL 11400757, at *4 (S.D. Fla. Mar. 25,
2008).
As

cited

above,

the

primary

accommodations

offered

to

Plaintiff were the VRI and training on the deaf culture, which took
place at the Center for Hearing and Communication.
83:3-9.

Additionally, Defendant at times, such as for group

meetings, provided an on-site interpreter.
69:5.

See DE 121 at

See DE 117 at 68:24-

It is apparent in the evidence that the accommodations

Defendant provided were not the accommodations Plaintiff desired.
First, at her December 2012 meeting with Mr. Powers and Ms.
LiCastro, Plaintiff testified that she “didn’t understand why they
were asking me about getting a video phone.”

DE 117 at 42:8-9.

Plaintiff admits briefly that the video phone was “good,” before
explaining

her

reaction

to

this

accommodation

with

a

story,

unrelated at least to the failure to accommodate claim, about an
interaction she had with Mr. Pack when they had a misunderstanding
about the break room in which the phone was installed.

See DE 117

at 53:25-54:6. Plaintiff later explains her reaction to the phone,

17

Case 0:15-cv-62065-WJZ Document 140 Entered on FLSD Docket 01/30/2019 Page 18 of 27

“But I didn’t even ask for a video phone, so I didn’t understand
why it was there.

They just put it in.

They set up VRI, and I’m

thinking, I don’t have a communication problem, what do we need
this for.”

DE 117 at 68:10-13.

Another issue with respect to the VRI that arose in the
testimony of multiple witnesses was the number of people who were
present for meetings, typically counseling sessions, in which the
VRI phones were used.

Dr. Shana Williams, a director of mental

health with the Center for Hearing and Communication, who was
involved with the training sessions and additional meetings with
Plaintiff and Mr. Pack, testified, albeit not as an expert, that
she

thought

that

the

VRI

was

effective

and

based

on

her

observation, was set up at the Pompano Beach store in a manner that
would be effective.

DE 120 at 82:19-25.

She stated that both VRI

and on-site interpreters are one-on-one, but because a VRI phone is
stationary, an on-site interpreter would be recommended for a group
meeting.

DE 121 at 89:12-22; 109:6-10.

Dr. Williams was asked,

“And from your understanding, if it’s three or more people in a
meeting, that meeting must have an actual on-site interpreter,” to
which she answered, “I’m saying that that is preferable. There are
places where an on-site interpreter is really mandatory, for
example, when a woman is giving birth and you really have to have
an

on-site

situations.”

interpreter.

And

then

DE 121 at 109:15-22.

18

there’s

less

critical

Plaintiff testified that,

Case 0:15-cv-62065-WJZ Document 140 Entered on FLSD Docket 01/30/2019 Page 19 of 27

during counseling sessions, “When I used the VRI, it was always
more than three people in the office. They would not give me an onsite interpreter.”
VRI, not
sessions.

an

DE 117 at 76:5-7.

on-site interpreter,

DE 118 at 173:12-18.

Mr. Pack confirms that the

was used

as

the

counseling

He also testified that the

additional person at a counseling session is primarily observing
and not necessarily taking part in the conversation.
111:22-24.

DE 119 at

When asked if there were instances in which the VRI was

used with four or more people in the room, Alan Holliday, a manager
who worked with Plaintiff, responded, “Not using the machine. When
there were others in the room, they were witnesses.”
53:20-21.

DE 122 at

And, the testimony of Carol Sivan, another manager who

worked with Plaintiff, agreed with that of Mr. Pack and Mr.
Holliday, that as a witness in a counseling sessions, “You just sit
there and observe and make sure that nothing wrong is happening.”
DE 122 at 159:4-7.

But, regardless of whether or not an on-site

interpreter would have been a better accommodation, and there was
no witness who was offered as an expert who so testified; indeed,
there is no testimony from any witness which could meet the burden
of establishing that this accommodation was not reasonable.

No

reasonable jury could find that a reasonable accommodation was not
offered.

Plaintiff’s evidence proffers no reasons why VRI is not

a reasonable accommodation; instead, Plaintiff’s testimony focused
on her preferences and the reasons that she did not agree with

19

Case 0:15-cv-62065-WJZ Document 140 Entered on FLSD Docket 01/30/2019 Page 20 of 27

Defendant’s choice.
required

to

provide

The law does not dictate that an employer is
the

maximum

possible

or

most

expensive

accommodation.
With respect to an additional accommodation, several witnesses
testified about a recommendation from the Center for Hearing and
Communication that Defendant provide what was described as a
communication team, by which Plaintiff could limit the number of
people from whom she received directions.
required to provide this accommodation.
discontinue its use.

Defendant was not

Thus, it was free to

Dr. Williams confirmed that the purpose of

this recommendation was “to decrease the number of people coming at
[Plaintiff] with information and directions.” DE 121 at 113:16-17.
But, she also unequivocally stated that it was supposed to be used,
“not circumventing other needed communications.”

DE 121 at 114:3.

Plaintiff also testified that when this accommodation was discussed
at the March 1, 2013 training: “So first [Dr. Williams] asked me
who I wanted to communicate with.
everyone.

And I said I’m fine with

Again, my job is to communicate with everybody.

But

[Dr. Williams] went ahead and picked three people out of the
audience.”

DE 117 at 60:19-21.

By Plaintiff’s own account, she

did not need this accommodation to perform her job.

Mr. Pack also

testified that he saw the three people as “three points of contact
to try to limit the communication, but that doesn’t mean that
[Plaintiff didn’t] talk to everybody.”

20

DE 120 at 230:24-231:1.

Case 0:15-cv-62065-WJZ Document 140 Entered on FLSD Docket 01/30/2019 Page 21 of 27

When Ms. LiCastro described this accommodation she stated, “I think
there is a group of managers that were going to be her direct
reports but that any manager could still provide guidance to her.”
DE 120 at 27:12-14.

Ms. LiCastro wrote the May 13, 2013 letter

that informed Plaintiff that, “[D]uring the March 1 meeting, [the
three individuals] were the designated managers assigned to address
any issues, changes or direction given to you, as a temporary
solution.

This

solution

cannot

realistically

continue.”

Defendant’s Exh. 14 (introduced by Plaintiff) (DE 99-11).

Ms.

Licastro’s letter informed Plaintiff that she would be required to
communicate with Mr. Pack. Id. During her testimony, Ms. LiCastro
stated that Plaintiff’s resistance to communicating with Mr. Pack
was the issue with the communication team.

DE 120 at 48:9-10.

When Mr. Pack was asked about the removal of this communication
team, he explained that they were not being “disband[ed],” but,
“What we were telling her is that these aren’t the ones that you
are going to talk to exclusively all the time.”
18.

DE 120 at 234:15-

Ms. Sivan, who was one of the members of the communication

team, likewise testified that Mr. Powers explained her role and
that “[the communication team] didn’t give [Plaintiff] the right to
not accept

any

other

manager

coming

and

approaching

directions or anything that was work related.”
16.

her

for

DE 122 at 178:14-

The argument that the discontinuation of this team, to the

extent it was ever intended to be exclusive, which all of the

21

Case 0:15-cv-62065-WJZ Document 140 Entered on FLSD Docket 01/30/2019 Page 22 of 27

employees of Defendant who were involved deny, and which Plaintiff
does not rebut, is a red herring.

Defendant was not required to

provide this particular accommodation.
said

to

fail

to

comply

with

the

Thus, Defendant cannot be
law

when

it

removes

an

accommodation that is not legally mandated. A defendant is free to
try different methods for providing an employee accommodations.
The

law

merely

requires

that

the

accommodation

provided

be

reasonable.

Defendant was not being unreasonable to discontinue

the use

an

of

additional

accommodation

that it

believed

was

interfering with Plaintiff’s ability to function in the workplace.
Yet another aspect of providing a reasonable accommodation
that courts have discussed is the interactive process between
employees and employers in which they try to reach a solution for
accommodating a disability which has been brought to the employer’s
attention.

In the Stewart case, the court found fault with the

employee for not engaging with the employer in this process.

117

F.3d at 1286-87. The court explained that it was inappropriate for
the employee to demand that her own suggestions be followed without
even

attempting

to

explain

why

accommodations were not reasonable.

the
Id.

employer’s

proffered

Employees cannot cause

the process to breakdown and prevail on a failure to accommodate
claim:
Liability simply cannot arise under the ADA when an
employer does not obstruct an informal interactive
process; makes reasonable efforts to communicate with the
employee and provide accommodations based on the
22

Case 0:15-cv-62065-WJZ Document 140 Entered on FLSD Docket 01/30/2019 Page 23 of 27

information it possesses; and the employee’s actions
cause a breakdown in the interactive process.
Id. at 1286 (further citations omitted).

See also Gilliard v.

Georgia Dep’t of Corr., 500 Fed. App’x 860, 868 (11th Cir. 2012).
It is also apparent that breakdowns in the use of both of the
primary accommodations were due, at least in part, to Plaintiff’s
unwillingness
employees

to

engage.

of Defendant

In

agree

particular,
in

their

both

Plaintiff

testimony

that

it

and
was

Plaintiff who would repeatedly, sometimes more than one time within
a given meeting, hang up the VRI phone, or even, request not to use
the phone.
Counseling

After receiving the first in the series of Employee
Notices

(hereinafter

“ECN”)

which

more

immediately

preceded her termination, Plaintiff describes a meeting with Mr.
Pack, in which she asked if he would write to her, and she
testifies that he insisted that they use the VRI.
81:3-8.

See DE 117 at

She admits that she hung up the phone two times because

Mr. Pack, “was very combative,” and “was trying to control the
interpreter and tell them what to do.”
See also DE 118 at 12:20-24.

DE 117 at 81:12, 15-16.

Plaintiff also agrees that she hung

up the VRI phone in a meeting with Mr. Holliday.
17.

DE 118 at 39:15-

And, Mr. Holliday confirmed this: “I attempted to start the

VRI, and [Plaintiff] ended the call before it connected.”

DE 122

at 25:9-10. Mr. Holliday also testified at least on that instance,
on August 30, 2013, he was ultimately able to use the VRI to
communicate with Plaintiff.

See DE 122 at 25:14-15.
23

Mr. Holliday

Case 0:15-cv-62065-WJZ Document 140 Entered on FLSD Docket 01/30/2019 Page 24 of 27

testified about a September 22, 2013 meeting where Plaintiff
refused to use the VRI so another manager, Ainsley Brown, wrote for
her instead.
similarly

See DE 122 at 35:19-21.

describes

Plaintiff’s

Ms. Sivan’s testimony

resistance

to

the

VRI

and

preference for writing, to which Defendant’s employees sometimes
deferred.

See DE 122 at 163:13-17; 166:17-21.

At a September 5,

2013 meeting with Mr. Pack, Plaintiff says that she did not want to
use the VRI, that she wanted Mr. Pack to write to her instead.
118 at 40:11-15.

DE

Again, in the midst of describing her many

complaints with Mr. Pack and his treatment of her, Plaintiff states
that she hung up the VRI, and again, she admits she hung it up two
times.

DE 118 at 42:12-22.

Mr. Pack’s testimony is consistent

with Plaintiff’s testimony, in that he also remembered her hanging
up the VRI phone on September 5, 2013.
29:19-22; 117:22-24.

See DE 119 at 25:16-22;

Plaintiff testified that later that day,

after the failed VRI conversation, Mr. Pack agreed to write back
and forth.

DE 118 at 44:2-4.

Certainly, Plaintiff’s testimony

reveals that the relationship between Plaintiff and Mr. Pack was
fraught with many difficulties.

But the question before the jury,

with respect to the claim at issue, and now, before the Court, is
whether

VRI,

among

other

accommodations,

is

a

reasonable

accommodation by which Defendant could seek to fulfill its legal
obligation

to

a

disabled

employee.

Nothing

in

Plaintiff’s

testimony indicates that there was any deficiency in the actual

24

Case 0:15-cv-62065-WJZ Document 140 Entered on FLSD Docket 01/30/2019 Page 25 of 27

accommodation, even if there were many interpersonal conflicts in
the relationship between Plaintiff and Mr. Pack.

The fact remains

that Plaintiff frequently obstructed the use of the accommodation
Defendant provided.

Her obstruction of this accommodation is not

evidence that the accommodation itself was not reasonable.
In addition to resisting the accommodation of the VRI provided
by Defendant, another example of Plaintiff not participating in
attempts Defendant made to improve communication between Plaintiff
and Mr. Pack was that she refused to attend additional recommended
meetings.

Dr. Williams discussed these proposed meetings between

Plaintiff and Mr. Pack as one of the solutions which arose out of
the March 1, 2013 training session.

DE 121 at 86:17-87:1.

Dr.

Williams testified that while Plaintiff was initially amenable to
the meetings, she ultimately refused to meet with Mr. Pack even
though she did have two meetings individually with Dr. Williams.
DE 121 at 87:8-16.
Pack individually.

Dr. Williams also had two meetings with Mr.
DE 121 at 87:17-23.

Mr. Pack similarly

testified about the recommendation of these meetings, and that
Plaintiff refused to meet with Dr. Williams and him in meetings
which would be scheduled with the three of them.
51:4.

DE 119 at 50:24-

Ms. LiCastro also testified that Plaintiff was unwilling to

meet with Dr. Williams and Mr. Pack.

DE 120 at 104:24.

An on-site interpreter would have been another possible way
for Defendant to accommodate Plaintiff, but as the case law makes

25

Case 0:15-cv-62065-WJZ Document 140 Entered on FLSD Docket 01/30/2019 Page 26 of 27

clear, as long as Defendant provides a reasonable option, the
accommodation does not have to be Plaintiff’s choice, and it does
not have to be the maximum or most expensive option.

The record in

this case is utterly devoid of any testimony that the VRI did not
function adequately.
preferred

an

Plaintiff did not like using the VRI and

on-site

interpreter.

Or,

she

preferred

her

supervisors to write to her, and there is some testimony and
evidence,

that,

preference.

at

But,

times

they

Plaintiff

attempted

cannot

hang

to

accommodate

up

on

video

this
phone

interpreters, repeatedly, and then claim that Defendant is not
accommodating her disability.

That conclusion is not permissible

under the existing body of cases interpreting this requirement of
the ADA, and by extension the FCRA.
the

conclusion

that

Plaintiff

In fact, the evidence supports

was

obstructing

the

reasonable

accommodation which Defendant was providing.
For all of the reasons provided herein, and recognizing the
applicable standard, because the Court has found that no reasonable
jury could have found in favor of Plaintiff on her failure to
accommodate claim, the Court also finds that the clear weight of
the evidence——that is the great and not merely the greater weight
of evidence——is against the Verdict (DE 103) rendered herein.
Thus, the Court will conditionally grant Defendant’s Motion For New
Trial And/Or Remittitur Under Rule 59 (DE 127), in the event that
the grant of Defendant’s Renewed Motion For Judgment As A Matter Of

26

Case 0:15-cv-62065-WJZ Document 140 Entered on FLSD Docket 01/30/2019 Page 27 of 27

Law Under Rule 50(b) (DE 126) is reversed on appeal.
Accordingly, after due consideration, it is
ORDERED AND ADJUDGED that
1. Defendant’s Renewed Motion For Judgment As A Matter Of Law
Under Rule 50(b) (DE 126) be and the same is hereby GRANTED;
2. Pursuant to Rules 58(a)(1), no separate judgment in favor
of Defendant will be entered, and this Order will constitute
judgment in favor of Defendant Costco Whole Corporation as to
Plaintiff’s claim for failure to accommodate; and
3. Pursuant to Rule 50(c), Defendant’s Motion For New Trial
And/Or Remittitur Under Rule 59 (DE 127) be and the same is hereby
conditionally GRANTED if the Final Judgment herein is later vacated
or reversed on appeal.
DONE AND ORDERED in Chambers at Fort Lauderdale, Broward
County, Florida, this

29th

day of January, 2019.

WILLIAM J. ZLOCH
Sr. United States District Judge
Copies furnished:
All Counsel of Record

27

